<html>
<title> - SENIOR LEADER MISCONDUCT: PREVENTION AND ACCOUNTABILITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 115-69]

        SENIOR LEADER MISCONDUCT: PREVENTION AND ACCOUNTABILITY

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 7, 2018


                                     
              [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                               __________
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE
                  
28-972		          WASHINGTON : 2019    




                   SUBCOMMITTEE ON MILITARY PERSONNEL

                    MIKE COFFMAN, Colorado, Chairman

WALTER B. JONES, North Carolina      JACKIE SPEIER, California
BRAD R. WENSTRUP, Ohio, Vice Chair   ROBERT A. BRADY, Pennsylvania
STEVE RUSSELL, Oklahoma              NIKI TSONGAS, Massachusetts
DON BACON, Nebraska                  RUBEN GALLEGO, Arizona
MARTHA McSALLY, Arizona              CAROL SHEA-PORTER, New Hampshire
RALPH LEE ABRAHAM, Louisiana         JACKY ROSEN, Nevada
TRENT KELLY, Mississippi
                 Dan Sennott, Professional Staff Member
                Craig Greene, Professional Staff Member
                         Danielle Steitz, Clerk
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Coffman, Hon. Mike, a Representative from Colorado, Chairman, 
  Subcommittee on Military Personnel.............................     1
Speier, Hon. Jackie, a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2

                               WITNESSES

Fine, Glenn A., Principal Deputy Inspector General, U.S. 
  Department of Defense..........................................     4
Harris, Lt Gen Stayce D., USAF, Inspector General of the Air 
  Force, United States Air Force.................................     8
McConville, GEN James C., USA, Vice Chief of Staff of the Army, 
  United States Army.............................................    34
Moran, ADM William F., USN, Vice Chief of Naval Operations, 
  United States Navy.............................................    35
Ottignon, BGen David A., USMC, Inspector General of the Marine 
  Corps, United States Marine Corps..............................     9
Quantock, LTG David E., USA, Inspector General of the Army, 
  United States Army.............................................     6
Shelanski, VADM Herman, USN, Naval Inspector General, United 
  States Navy....................................................     7
Walters, Gen Glenn M., USMC, Assistant Commandant of the Marine 
  Corps, United States Marine Corps..............................    36
Wilson, Gen Stephen W., USAF, Vice Chief of Staff of the Air 
  Force, United States Air Force.................................    36

                                APPENDIX

Prepared Statements:

    Coffman, Hon. Mike...........................................    57
    Fine, Glenn A................................................    59
    Harris, Lt Gen Stayce D......................................    97
    McConville, GEN James C......................................   107
    Moran, ADM William F.........................................   113
    Ottignon, BGen David A.......................................   103
    Quantock, LTG David E........................................    87
    Shelanski, VADM Herman.......................................    92
    Walters, Gen Glenn M.........................................   125
    Wilson, Gen Stephen W........................................   118

Documents Submitted for the Record:

    Chart displayed by Ms. Speier................................   133

Witness Responses to Questions Asked During the Hearing:

    Ms. McSally..................................................   140
    Ms. Speier...................................................   137

Questions Submitted by Members Post Hearing:

    Ms. Speier...................................................   145
    Ms. Tsongas..................................................   148
    
 

    
        SENIOR LEADER MISCONDUCT: PREVENTION AND ACCOUNTABILITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                       Washington, DC, Wednesday, February 7, 2018.
    The subcommittee met, pursuant to call, at 9:04 a.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Coffman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE COFFMAN, A REPRESENTATIVE FROM 
     COLORADO, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Coffman. This subcommittee hearing is called to order.
    I want to welcome everyone to this morning's Military 
Personnel Subcommittee hearing. The purpose of today's hearing 
is to receive testimony from the Department of Defense and the 
services regarding efforts they have taken to investigate and 
hold senior leaders accountable for misconduct and to 
understand what programs and policies are in place to prevent 
misconduct.
    Our military enjoys the highest confidence rating by far of 
any institution in American society. This well-deserved 
reputation has been earned through the service and sacrifice of 
millions of brave men and women. One by-product of this 
reputation is that the military and its leaders are held to a 
much higher standard than almost any other institution, and I 
know that you wouldn't have it any other way.
    Consequently, the misconduct of a few can greatly impact 
the military's hard-earned reputation. When the misconduct 
involves flag or general officers, the negative effects are 
even greater. These incidents of senior leader misconduct, even 
though relatively rare, not only hurt the victims involved, but 
can have a lasting impact on the readiness of the unit in which 
the senior leader has served.
    While one incident of senior leader misconduct is too many, 
it is important to acknowledge that the vast majority of senior 
leaders serve with distinction. It is also important to 
acknowledge that some of the acts of misconduct that the 
military investigates and punishes would not be investigated, 
much less punished, in the civilian world. Nonetheless, 
military leadership must continue to ensure that all senior 
leaders uphold the highest standards of ethical conduct, and 
when senior leaders fall short, they must be held appropriately 
accountable.
    We will hear from two panels today. The first panel 
consists of the Department of Defense and services' inspectors 
general. They will discuss the reporting and investigation of 
senior leader misconduct, in addition to the types of cases 
they investigate.
    For the second panel, we are honored to have the Vice 
Chiefs of the Army, Navy, and Air Force, along with the 
Assistant Commandant of the Marine Corps. They will discuss 
what happens to those IG [inspector general] investigations, if 
they are substantiated, how they hold individuals accountable, 
and they will provide an overview of their prevention programs.
    I look forward to hearing from our witnesses today about 
ethics and mentorship programs in place to prevent misconduct. 
I am also interested to hear how the services investigate 
misconduct allegations and hold wrongdoers accountable. 
Additionally, I would like to know what trends had developed 
with regard to the types of issues that are being reported and 
investigated. Finally, I look forward to hearing what 
additional actions can be taken to further reduce incidents of 
senior leader misconduct.
    I would like to make two other administrative points. 
First, it is important to note that the Department of Defense's 
common definition of senior official includes an officer in the 
grade of O-7 and above, including officers who have been 
selected for promotion to O-7, or civilian member of the Senior 
Executive Service. For the purposes of today's hearing and 
consistent with the jurisdiction of this subcommittee, the 
witnesses have been asked to focus on misconduct by senior 
military officers in the rank of O-7 select and above.
    I would also like to remind the members that the witnesses 
today may not be able to answer certain questions regarding 
specific cases if the answer would compromise an ongoing 
investigation or would give rise to an accusation that the 
military has prejudged the outcome of a pending investigation.
    Before I introduce our first panel, let me offer the 
ranking member, Ms. Speier, an opportunity to make her opening 
remarks.
    Ms. Speier.
    [The prepared statement of Mr. Coffman can be found in the 
Appendix on page 57.]

    STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Thank you, Mr. Chairman.
    Thank you all for being here today and for your service to 
our country. You know, one of the core tenets of the armed 
services and of our country is that no one is above the law. 
From the most recent recruit to the most senior officer, all 
service members are subject to the same UCMJ [Uniform Code of 
Military Justice] laws and the same ethical code of conduct. 
But there is a phrase in the military that goes like this, 
``Different spanks for different ranks.'' And as Don 
Christensen, the former general counsel for the Air Force said, 
and I quote, ``An everyday troop is court-martialed for what a 
general officer is given a slap on the wrist.''
    So it is with great sorrow and anger that I have read 
countless reports of misconduct among senior leaders, including 
general officers and admirals. This is borne out by the data. 
Buried on page 66 of an 85-page DOD [Department of Defense] 
Inspector General [IG] report on, quote, ``Top DOD Management 
Challenges,'' unquote, is a finding of a 13 percent increase in 
complaints alleging misconduct by senior officials from fiscal 
year 2015 to fiscal year 2017, from 710 to 803. An increase in 
substantiated rate increase from 26 percent to 37 percent. The 
most common allegations involved personal misconduct including 
improper relationships, improper personnel actions, misuse of 
governmental resources, and travel violations.
    In my time on this committee, I have heard over and over 
the importance of the chain of command and how it leads to 
better justice outcomes, but many senior leaders who should be 
the essential core of the chain of command are not being held 
to the same standard as the rank and file. This corrupts 
fairness, justice, and morale.
    To illustrate the severity of this problem, I want to 
highlight five cases of senior leader misconduct from just the 
last few years. As you will see, these senior leaders committed 
serious crimes and rule violations, yet received only light 
administrative, not judicial, punishment. Most got no public 
scrutiny until journalists inquired about their cases.
    Army Major General John Custer had an inappropriate 
relationship with a woman, had his staff buy her sexy clothes, 
and lied to investigators about it. Lucky for him, General 
Martin Dempsey, then Custer's commander, removed, and I am 
underscoring this, removed the substantiated account of an 
inappropriate relationship from Custer's record. How do you do 
that? So the review board could only consider lesser charges. 
Custer retired at a rank and kept his pension. So he retired at 
rank and kept his pension. The public only knows about this 
incident because a whistleblower told USA Today.
    Second, Air Force General Arthur Lichte was alleged to have 
coerced sex from a subordinate in 2007 and 2009. His victim 
believes she had to reciprocate the general's advances due to 
his rank and position. Lichte was reprimanded and demoted to 
major general, but not for command rape but for a, quote, 
``inappropriate sexual relationship.''
    Army Major General Ralph Baker assaulted a woman at an off-
base event. For this he received a letter of reprimand and 
retired as a brigadier general. The public learned about this 9 
months after it happened following a FOIA [Freedom of 
Information Act] request.
    Army Major General David Haight's exploits earned him the 
nickname ``swinging general.'' He had an 11-year affair and 
regularly swapped sexual partners, which made him a foreign 
intelligence threat and target. As punishment, Haight was 
reprimanded and retired as a lieutenant colonel.
    But make no mistake, not all misconduct is sexual. At West 
Point, the man in charge of teaching future leaders ethics, 
Superintendent Lieutenant General David Huntoon, Jr., made his 
staff work at private charity dinners, give free driving 
lessons, and feed a friend's cat. Huntoon received a reprimand 
and retired at rank. The IG report was kept secret for more 
than a year and only released via FOIA as Huntoon neared 
retirement.
    Colleagues, these are just 5 stories out of an estimated 
500 since 2013. They don't even include criminal misconduct of 
the type we have seen in the Fat Leonard case in which 330 Navy 
personnel, including 60 current and retired admirals, are under 
investigation for accepting bribes and gifts. And these aren't 
just ordinary bribes and gifts. Some of them included an 
$18,000 dinner or a $50,000 stay in a swank hotel. Sometimes 
these bribes and gifts were exchanged for revealing classified 
information. But I picked them because they are illustrative of 
a deep and systematic problem in the armed services.
    Leaders set the standard, and when that leadership is 
toxic, it drips down to all levels of the military. Based on 
the DOD Inspector General's own data, it is clear that the 
current system of deterrence is not working. In today's 
hearing, I want to hear from all our panelists about what they 
are doing to exert sufficient oversight. In the case of the 
inspector general, how are they working to increase 
accountability and transparency? In the case of the vice 
chiefs, what are they doing to combat criminal behavior and 
corruption?
    Thank you, Mr. Chairman, and I look forward to hearing from 
our witnesses.
    Mr. Coffman. I thank the ranking member.
    We will give each witness the opportunity to present his or 
her testimony and each member an opportunity to question the 
witnesses for 5 minutes. We would also respectfully remind the 
witnesses to summarize, to the greatest extent possible, the 
high points of your written testimony in 5 minutes or less. 
Your written comments and statements will be made part of the 
hearing record.
    Let me welcome our first panel. Mr. Glenn A. Fine, 
Principal Deputy Inspector General, United States Department of 
Defense; Lieutenant General David E. Quantock, Inspector 
General of the United States Army; Vice Admiral Herman 
Shelanski, Naval Inspector General; Lieutenant General Stayce 
D. Harris, Inspector General of the Air Force; Brigadier 
General David A. Ottignon, Inspector General of the Marine 
Corps.
    With that, Mr. Fine, you are recognized for your opening 
statement.

STATEMENT OF GLENN A. FINE, PRINCIPAL DEPUTY INSPECTOR GENERAL, 
                   U.S. DEPARTMENT OF DEFENSE

    Mr. Fine. Chairman Coffman, Ranking Member Speier, members 
of the subcommittee, thank you for inviting me to testify about 
the work of the Department of Defense Office of Inspector 
General regarding senior official misconduct, prevention, and 
accountability. In my written statement, I describe how the DOD 
OIG [Office of Inspector General] investigates allegations of 
senior official misconduct and oversees military service IG 
investigations of these allegations. In addition, I provide 
statistics and trends on the number of misconduct complaints, 
the types of misconduct, the number of investigations, the 
timeliness of investigations, and substantiation rates for both 
the DOD OIG and the service IG investigations. I also provide 
additional statistics for a particular type of misconduct: 
allegations of retaliation and reprisal by senior officials 
against whistleblowers. In my oral testimony, I would like to 
highlight a few key points from that statement.
    First, I believe it is important to recognize that the vast 
majority of senior officials in the DOD perform their 
challenging jobs with dedication and integrity. My experience, 
both as the IG of the Justice Department overseeing the DOJ 
[Department of Justice] and the FBI [Federal Bureau of 
Investigation] for 11 years and from my experience for over 2 
years performing the duties of the DOD Inspector General, is 
that only a very small percentage of these senior officials 
fail to uphold the high ideals and ethics required of their 
critical positions. However, some do commit misconduct. When 
they do, they need to be held accountable. The DOD OIG and the 
service IGs, therefore, seek to investigate allegations of 
misconduct in a thorough, fair, professional, and timely way.
    Second, the data I present in my written statement show 
that there was a significant increase in the number of 
complaints alleging misconduct by senior DOD officials from 
fiscal year 2008 to fiscal year 2012, and since then the number 
of these complaints has been steady. During the same period, 
the number of allegations warranting investigation by the DOD 
OIG or service and component IGs has decreased.
    Overall, the number of senior official cases with any 
findings of substantiated misconduct rose between fiscal year 
2008 and 2012 from 40 to 85, but has declined since then to 49 
in fiscal year 2017. However, I want to make clear our 
recognition that any misconduct by a senior official is 
unacceptable.
    Third, while the types of substantiated allegations against 
senior officials involve a broad range of misconduct, the 
allegations primarily fell within five main categories, which I 
describe in my written statement. Within these categories, 
there are several areas of particular concern. For example, 
there are a number of substantiated allegations against senior 
officials engaged in inappropriate relationships, and these 
cases have received substantial public attention.
    Fourth, the DOD OIG also has a criminal investigative arm, 
the Defense Criminal Investigative Service, DCIS, to handle 
investigations of criminal allegations. Currently, the biggest 
case DCIS is handling involves Glenn Defense Marine Asia [GDMA] 
and its owner, Leonard Francis, widely known as the Fat Leonard 
case. GDMA provided husbanding services to U.S. Navy ships in 
the Pacific, such as refueling and resupply. Francis 
orchestrated a scheme to defraud the U.S. Navy of tens of 
millions of dollars by routinely overbilling for goods and 
services. Francis accomplished this criminal conduct by 
systematically grooming and bribing Active Duty military and 
civilian employees of the U.S. Navy with things of value, such 
as dinners, gifts, hotel expenses, money, and the services of 
prostitutes.
    To date, Francis and 17 former Navy and DOD officials, 
including a rear admiral and an SES [Senior Executive Service] 
member, have pled guilty to criminal conduct. In addition, in 
2017, nine senior officials previously assigned to the Navy's 
7th Fleet were indicted for conspiracy, bribery, and false 
statements. That case is ongoing.
    Finally, my written statement discusses measures the DOD 
OIG has implemented to further improve investigations of 
misconduct. For example, to standardize investigations across 
the DOD and to speed the review process, we are working to 
implement a standardized case management database among the DOD 
OIG and military service IGs.
    To ensure compliance with laws and regulations and to share 
best practices among the service IGs, we have begun conducting 
quality assessment reviews of the service IGs similar to peer 
reviews. To promote fairness, the DOD OIG provides subjects an 
opportunity to comment on the accuracy of our substantiated 
findings through the tentative conclusions letter process prior 
to completion of our final report.
    To promote transparency, the DOD OIG considers proactive 
public release of our completed substantiated reports, 
particularly those with findings of substantiated misconduct 
involving high-level officials. To help address timeliness, we 
have also reallocated resources within the DOD OIG to increase 
the number of investigators working on misconduct and 
whistleblower cases. However, handling the increasing number 
and complexity of complaints requires resources, not only for 
the DOD OIG, but also for the service and component IGs. It is 
critical to adequately resource the DOD OIG, as well as the 
service and component IGs, particularly when the DOD continues 
to grow.
    In conclusion, the DOD OIG and the service IGs have a 
challenging but critically important mission to investigate 
allegations of misconduct thoroughly, fairly, professionally, 
and timely, and we will continue to seek to fulfill that 
important responsibility.
    That concludes my statement, and I would be glad to answer 
any questions.
    [The prepared statement of Mr. Fine can be found in the 
Appendix on page 59.]
    Mr. Coffman. Thank you, Mr. Fine.
    General Quantock.

 STATEMENT OF LTG DAVID E. QUANTOCK, USA, INSPECTOR GENERAL OF 
                  THE ARMY, UNITED STATES ARMY

    General Quantock. Thank you, sir.
    Chairman Coffman, Ranking Member Speier, and distinguished 
guests of the committee, thank you for the opportunity to 
testify on senior leader misconduct. On behalf of the Secretary 
of the Army, the Honorable Dr. Mark Esper, and our chief of 
staff, General Mark Milley, thank you for your support of our 
soldiers, Army civilians, families, and veterans.
    The Army holds its senior leaders to the highest standards. 
The trust and confidence of the American people, which is 
intrinsic to who we are as an Army, is rooted in our character 
and our credibility. We do acknowledge problems exist, and we 
take senior misconduct very seriously. Over the past decade, 
the Army Inspector General agency substantiated allegations 
against only 3 percent of the general officer population per 
year. While recent headlines on Army senior misconduct give the 
appearance of widespread misbehavior, the truth is most 
transgressions are technical violations committed by a very 
small minority.
    The most common substantiated allegations involving general 
officers are misuse of government resources, failure to follow 
regulations, and failure to take action. Substantiated 
allegations for inappropriate relationships or sexual 
misconduct over the past decade involved less than 1 percent of 
general officers. This small fraction of senior leaders does 
not represent the honorable service and character of the entire 
general officer core.
    Whistleblower reprisal remains the number one allegation. 
The substantiation rate for whistleblower reprisal cases is 4 
percent. A significant factor in the low 4 percent 
substantiation rate is the misuse of the whistleblower reprisal 
process. This typically occurs when a soldier or civilian is 
held accountable by a senior official for misconduct or poor 
performance, following a protected communication. The resulting 
claim of reprisal creates challenges for senior commanders who 
hold people accountable and then are faced with an inspector 
general whistleblower reprisal investigation. And in the last 3 
years, whistleblower reprisal has basically had a sixfold 
increase and has been--is out of control, in my view.
    The vast majority of the 685 general officers serving are 
doing the right thing every single day. The positive trend over 
the past 5 years has been a 51 percent reduction in the number 
of general officer substantiated cases from 32 in 2013 to 15 
last year. This includes a decrease in substantiated 
allegations for official travel violations, inappropriate 
political activities, non-Federal entities involvement, 
conflicts of interest, and improper endorsements.
    In closing, the overwhelming majority of Army general 
officers abide by the letter and spirit of our laws and 
regulations, and utilize sound judgment in the stewardship of 
taxpayer resources. Those who do not are held accountable.
    Mr. Chairman, members of the committee, thank you for your 
continued support of our soldiers, our civilians, families, and 
veterans. I look forward to your questions.
    [The prepared statement of General Quantock can be found in 
the Appendix on page 87.]
    Mr. Coffman. Thank you, General Quantock, for your 
testimony.
    Vice Admiral Shelanski, you are now recognized.

   STATEMENT OF VADM HERMAN SHELANSKI, USN, NAVAL INSPECTOR 
                  GENERAL, UNITED STATES NAVY

    Admiral Shelanski. Chairman Coffman, Ranking Member Speier, 
and Military Personnel Subcommittee members, thank you very 
much for having us here today to discuss senior leader 
misconduct and the opportunity to explain our senior leader 
investigative process.
    In the Navy, we take pride in living up to our core values 
of honor, courage, and commitment. We expect the highest 
ethical and moral behaviors of our senior leaders. Therefore, 
we take any allegations of misconduct very seriously, and where 
appropriate, investigate, and when substantiated, hold our 
people accountable when they do not meet our high standards.
    To be clear, there must be a violation of rule, regulation, 
or law. There is a process in place with many offices that 
handle this range of violations. Our primary role as the IG is 
to conduct administrative investigations, not criminal or UCMJ 
cases.
    When we receive complaints on flag officers from our 
hotline, Congress, or by referral from the DOD, we will open 
investigation on credible allegations of misconduct against 
one- and two-star admirals.
    The investigation process is fair, deliberate, and 
thorough. Our investigators are highly trained and experienced 
professionals who rigidly adhere to the Council of Inspectors 
General on Integrity and Efficiency standards. We constantly 
strive through process improvements to produce ever more timely 
reports without sacrificing professional due diligence. Our 
investigators receive lots of oversight, from our division 
directors to legal review to a DOD review and their ultimate 
approval.
    At the end of our investigation, all reports go to the CNO 
[Chief of Naval Operations] and the Secretary of the Navy. If 
any allegation is substantiated, we submit a request to the 
Office of the VCNO [Vice Chief of Naval Operations] that 
appropriate corrective action be taken and documented. 
Corrective action can range from verbal counseling to formal 
disciplinary action under UCMJ. We receive a copy of the 
documented corrective action recorded in our database and 
provide a copy to the DOD IG. This adverse information will 
remain in the officer's record for the entirety of their 
career.
    In the last 5 years, we have seen a steady decrease in the 
number of overall flag officer complaints and also a decrease 
in the number of cases substantiated. The most common 
categories of substantiated offenses we have seen is misuse of 
government vehicles and drivers for personal use, improper use 
of official travel, improper gift acceptance, and prohibited 
personnel practices.
    In conclusion, I believe that our investigative process is 
a necessary and effective tool to address questionable ethical 
behaviors by our senior leaders. Thank you for your continued 
support for our sailors, Marines, Navy families, and veterans. 
I look forward to your questions.
    [The prepared statement of Admiral Shelanski can be found 
in the Appendix on page 92.]
    Mr. Coffman. Thank you, Vice Admiral Shelanski.
    Lieutenant General Harris, you are now recognized.

 STATEMENT OF LT GEN STAYCE D. HARRIS, USAF, INSPECTOR GENERAL 
           OF THE AIR FORCE, UNITED STATES AIR FORCE

    General Harris. Okay. Thank you.
    Chairman Coffman, Ranking Member Speier, and distinguished 
members of the subcommittee, thank you for your invitation to 
testify before you today.
    And as the Air Force Inspector General, I am responsible to 
independently and continuously inspect, assess, investigate, 
and report to the Secretary of the Air Force on the readiness, 
economy, efficiency, and discipline of our force. And with the 
Air Force core values of integrity first, service before self, 
and excellence in all we do, I take special pride in helping 
ensure our airmen live up to those values.
    Misconduct by Air Force senior officers erodes the trust in 
our service, the trust of our airmen, and the trust of our 
country. And your Air Force is committed to the development of 
ethical airmen leaders, and we are equally determined to ensure 
accountability when standards are violated. And part of my 
responsibility includes resolution of complaints against Air 
Force general officers, officers selected for promotion to 
brigadier general, and retired general officers.
    The top three categories of violations we have seen in the 
past 5 years may be generally categorized as ethics violations, 
improper handling of personnel matters, and unprofessional 
relationships, in that order. And every complaint against a 
senior officer is diligently acted upon.
    Our cases are investigated by an independent team of 
investigating officers, augmented by embedded attorneys from 
the Office of the Air Force Judge Advocate General. And Air 
Force senior officer investigations are independent, thorough, 
impartial, objective, and we are careful to meet all legal 
requirements. This important work of ensuring accountability in 
our most senior leaders promotes the discipline, efficiency, 
and economy of our force.
    Our process in conducting senior officer investigations 
includes multiple layers of internal review, with every 
investigation receiving a separate and independent legal review 
signed by the director of administrative law for the Air Force. 
And upon completion of each investigation, the Department of 
Defense Office of the Inspector General provides an oversight 
review, as was mentioned. Investigations with substantiated 
allegations are referred to the appropriate command authority 
to determine what disciplinary action is warranted.
    And, finally, my deputy and I use a variety of venues and 
products to promote education and awareness across our senior 
officer population. It is important to me that we not only 
investigate complaints against our senior officers, but that we 
also work to reduce the incidence of misconduct by these high-
ranking leaders.
    Mr. Chairman, Ranking Member Speier, members of the 
subcommittee, I very much appreciate the committee's continuing 
support of our Air Force and your interest in our efforts to 
prevent misconduct by our senior officers. I look forward to 
your questions.
    [The prepared statement of General Harris can be found in 
the Appendix on page 97.]
    Mr. Coffman. Thank you, Lieutenant General Harris.
    Brigadier General Ottignon, you are now recognized.

STATEMENT OF BGEN DAVID A. OTTIGNON, USMC, INSPECTOR GENERAL OF 
          THE MARINE CORPS, UNITED STATES MARINE CORPS

    General Ottignon. Thank you, Mr. Chairman.
    Mr. Coffman. And how do you say it?
    General Ottignon. It is pronounced Ottignon.
    Mr. Coffman. Ottignon. I was close.
    General Ottignon. Yes, sir.
    Mr. Coffman. Okay.
    General Ottignon. Thank you, Mr. Chairman, Ranking Member 
Speier, distinguished members of the House Armed Services 
Committee on Military Personnel. Thank you for the opportunity 
to testify today about this important topic.
    My office provides the Secretary of the Navy and the 
Commandant of the Marine Corps an impartial and [credible] 
means to investigate or inquire into allegations of senior 
official misconduct, impropriety, or violation of law. I 
oversee a group of 25 dedicated professionals committed to 
upholding the laws that govern the service.
    In the past 10 years, 15 Marine Corps generals were 
substantiated by a thorough investigation process led by an 
inspector general. Most of these cases were violations of 
administrative processes and standards of conduct regulations. 
None of them were criminal in nature.
    I have complete confidence in the investigatory process and 
due diligence taken with each and every allegation brought 
forward. Every general officer investigation is reviewed for 
legal sufficiency and requires Department of Defense Inspector 
General oversight.
    The seriousness of which the Marine Corps approaches 
character, leadership, and ethics is apparent in the demanding 
standards that we expect all our leaders to uphold.
    In the last year, my office has traveled around the globe 
conducting training with commanding generals across the Corps 
and conducting thorough inspections to ensure that the 
application of our standards are consistent with our 
foundational core values of honor, courage, and commitment.
    On behalf of the Secretary of the Navy and the Commandant 
of the Marine Corps, we thank Congress and this subcommittee 
for the opportunity to discuss such an important issue with you 
this morning and your continued support for our United States 
Marine Corps and its families. I look forward to the 
opportunity to answer your questions.
    [The prepared statement of General Ottignon can be found in 
the Appendix on page 103.]
    Mr. Coffman. Thank you, Brigadier General Ottignon, for 
your testimony.
    We are going to limit to 5 minutes each member, but we will 
do a second round, if necessary, for the first panel.
    Some of you mentioned during your testimony that there is a 
wide scope of misconduct that you investigate. Could you please 
give some additional examples of the types of cases you 
investigate, and if you see any misconduct trends emerging? Why 
don't we start with you, Lieutenant General Quantock.
    General Quantock. Yes, sir. I am just looking at the last--
last year, we had 15 substantiations. The range of the kind of 
work that we do is late NCOERs [noncommissioned officer 
evaluation reporting]. We had one particular general officer 
that basically lied on his PT [physical training] test, height 
and weight type stuff. One that inappropriately approved a 
flyover, so misuse of government resources. The dignity and 
respect, how they treated subordinates, what they were 
substantiated for. Improperly using an IG investigation for 
adverse action at the junior levels was substantiated.
    So those are--misuse of subordinate times, subordinate--we 
have made a huge effort in trying to get after certain cases 
where general officers make technical type of mistakes with 
subordinates primarily.
    You know, we all have staffs, and a lot of times our staffs 
try to do good things for us, and they try to make our life a 
little bit nicer. We have beat the hell out of that the last 
couple years. We have got an exportable training package. When 
I sit down with a general officer that are going into command, 
we encourage them to sit down. It is about 75, 80 pages of 
PowerPoint slides, basically vignettes of what has got general 
officers in trouble. Again, a lot of technical violations from 
use of travel, getting rental cars, all those kind of things 
that sets folks up for trouble.
    Mr. Coffman. What is dignity and respect?
    General Quantock. Dignity and respect is publicly 
humiliating somebody. That is the genesis of dignity and 
respect. So--but that exportable training package I think is 
one of the leading reasons why in 2013 we had 32 general 
officers out of 685, I might add, down to 15 that we have in 
this last year. A lot of the technical violations have been 
weeded out. So we continue to work this piece hard, not to 
mention all of the efforts of the senior leadership to get out 
there and make their vision well known.
    Mr. Coffman. Next.
    Admiral Shelanski. Yes, sir. So for us, over the last 3 
years, a decrease trendwise in substantiated cases, so 10 in 
2015, 4 in 2016. It looks like one will be substantiated for 
2017. We are finishing that case up now.
    You know, in general, most of the cases are about gifts 
acceptance and solicitation. So these are the technical--I am 
going out to lunch, and I accepted a gift of lunch from a 
contractor that was more than the acceptable limit. It is also 
in terms of endorsing non-Federal entities, so there are 
certain charities that were not supposed--unless they are 
federally recognized. In our official capacity, we are not 
allowed to endorse them, so one of our flag officers was seen 
to endorse it inappropriately, but, of course, mistakenly did 
not know that at the time. Also, some pay and benefits, so, for 
instance, leave statements, so inappropriate documentation of 
leave. And so those are very technical violations in general, 
so nothing in the order of larger, you know, more--so--and 
specific, no sexual harassment or any of those type of trends, 
sir.
    Mr. Coffman. General Harris.
    General Harris. Thank you. The greatest majority of our 
violations have been ethics violations, as has been mentioned 
by my peers. Misuse of a subordinate's time, misuse of a 
government vehicle, unauthorized gifts, postgovernment 
employment. But what is most important is that how we 
proactively, within the IG enterprise, within the inspector 
general enterprise, go out and educate our personnel, from the 
most junior to the most senior, on the different pitfalls and 
opportunities to lead the right example and to let them know 
what to look out for, and even--there is complaints sometimes 
that people don't think that would be an issue, giving out a 
challenge coin to a contractor would be a violation, but we 
continually educate our personnel on what the pitfalls are and 
what they should do to correct them.
    Mr. Coffman. Where in the career track do you begin that 
education?
    General Harris. From the very beginning.
    Mr. Coffman. From the very beginning?
    General Harris. Yes, sir.
    General Ottignon. Sir, in the last 3 years, we have had 
four substantiations. All of those were administrative in 
nature, violations of Marine Corps order for fitness report 
evaluations, for physical fitness evaluations. One was regards 
to training. So our trend lines are, as I previously mentioned, 
all administrative in nature.
    Mr. Fine. Mr. Chairman, if I can add.
    Mr. Coffman. Sure.
    Mr. Fine. Since we have oversight over all the service IGs, 
we have accumulated all the data on the types of misconduct, 
and which we described on page 10 of my testimony. It generally 
fell into five categories. First one, misconduct or ethical 
violations, such as improper accepting services from a 
subordinate, sexual relationships with subordinates, requiring 
subordinates to perform personal services for them, misusing 
your official position.
    The second one is improper personnel matters, which also 
involves unwelcome physical contact with subordinates and 
improper hiring.
    Third is misuse of government resources, such as using 
vehicles to commute improperly or misuse of government 
aircraft.
    And the fourth is travel violations, traveling for purely 
personal reasons.
    And the fifth is other, for such things as improper 
procurement, steering contracts.
    On page 11, I talk and we discuss the trend lines, and the 
trend lines are generally down, but they are still significant 
in these categories. And of particular interest, I think to the 
committee, is the inappropriate relationship category. On page 
12, we talk about how many there are across the services, and 
there has been a steady number of them. There were 10 in 2013 
substantiated findings, and in the subsequent years----
    Mr. Coffman. Mr. Fine, I am afraid I am out of time. I am 
going to have to----
    Ranking Member Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    I would like to put a chart up, if we could, that shows 
each of the services. And this is for you to start, Mr. Fine. 
So in the Air Force, the total closed cases were 54; 54 were 
dismissed, zero were investigated in the Air Force. In the 
Army, 101; 101 dismissed, zero investigated. Defense agency, 
111; 110 dismissed, 1 was investigated. Thirty-six in the Navy; 
36 dismissed, zero investigated.
    Are you basically saying that none of these cases even 
deserved to be investigated?
    [The chart referred to can be found in the Appendix on page 
133.]
    Mr. Fine. So that chart, Representative Speier, I think is 
from our semiannual report for a 6-month period.
    Ms. Speier. It is one half of the year.
    Mr. Fine. Yes, one half of the year in 2017. What we have 
is, in my testimony is a chart describing the number of cases 
involving senior official misconduct overall for the last 10 
years, and there is a substantial number investigated. The 
chart that was up there has to do with, I think, three-star and 
four-stars, which are the highest level ones. And so this chart 
has to do with senior official cases, including two-stars, one-
stars, O-7 promotables, SES employees, et cetera.
    We do look at all these cases seriously. We do intake. We 
determine whether it warrants an investigation, and these are 
the ones that did warrant investigation against the high-level 
officials who was investigated against. But as you can see from 
my chart on page 8, there is a significant number of ones that 
are investigated and are substantiated.
    Ms. Speier. But I am totally confused then. It says that 
zero of these, out of 312 cases, 311 of them were dismissed. 
Only one was investigated. Are we basically--are you basically 
telling us that all of these cases were bogus?
    Mr. Fine. No. And what this chart also does--it is probably 
a confusing chart. The top part is the DOD OIG receiving those 
cases. Many of them are referred down to the service or agency 
and are investigated and closed by them. So if there is 54, for 
example, that we get, we--these are the numbers we investigate, 
and we refer them down to the Air Force, the Army, the Marine 
Corps, and the Navy, and they investigate them and have 
investigated many of them.
    Ms. Speier. Well, it is still not making any sense to me.
    Mr. Fine. Okay.
    Ms. Speier. So there is 54 that you receive from the Air 
Force. Why do you use the term ``dismissed'' if you were then 
forwarding them to the Air Force IG?
    Mr. Fine. So we receive far more than those, and we refer 
many of them, 12 of them to the Air Force, for example, and of 
the others we do not--we do intake and determine they don't 
require an investigation. But there are a number of them that 
do require investigation, as indicated by the chart below, the 
numbers below.
    Ms. Speier. Well, the numbers below are the ones that are 
investigated by the service IGs.
    Mr. Fine. Right.
    Ms. Speier. You are not investigate--it looks like you are 
not investigating any, by this chart. I don't want to take a 
lot of time on this. I think this chart needs to be reviewed, 
and I would like for you to come to my office. And I don't know 
if Mr. Coffman would be inclined to hear more about this, but 
this is deeply troubling to me.
    All right. In one of the cases that I mentioned, there was 
a recommendation by the IG of holding someone accountable for 
substantiated claims, and then it went to the--in this case, 
General Dempsey, who just struck one of the substantiated 
claims. How often does that happen?
    Mr. Fine. We have a chart on page 14 that it happens 
sometimes. Of the allegations, of 427 allegations of 
substantiated misconduct, over I think it is a 5-year period, 
29 of them were declined to take action, and about 80 of them 
are still pending. So in a small percentage of allegations they 
are--the service has declined to take action.
    Ms. Speier. So you are saying--did you not present your 
document to us until yesterday?
    Mr. Fine. We provided it, yes.
    Ms. Speier. So I still don't have a copy of it, 
unfortunately. Can you just go over that for me?
    Mr. Fine. Certainly. On page 12, we discuss corrective 
actions by rank of senior official, and this is over from 
fiscal year 2013 to 2017, and we describe the actual discipline 
corrective action that was taken, ranging from a letter of 
counseling to suspension to removed from assignment. Of those, 
the top line is declined to take action. In 29 of the 427 
substantiated allegations, the service declined to take action.
    Ms. Speier. All right. Would you please provide for me, in 
those 29 cases where they declined to take action, the 
specifics. Because I find it unjustified to have inspector 
generals go through the process of determining, through 
investigation, conduct that is inappropriate, have that be 
presented to the chiefs, and then have them just strike it as 
if it doesn't exist, as it happened in the Custer case. I mean, 
that is fraudulent, as far as I am concerned.
    And with that, Mr. Chairman, I will yield back.
    Mr. Coffman. Mr. Bacon, you are now recognized.
    Mr. Bacon. Thank you, Mr. Chairman. And thank you all for 
being here today.
    I want to take a couple of questions for the four service 
reps, give you a chance to think about, so I will go to Mr. 
Fine and ask him a couple while you are stewing on a couple of 
these questions. But I take--I find most commanders try their 
best to do the right job on these things, but they are 
imperfect. Some of them have made bad decisions, just as some 
judges have, just as some district attorneys have. We are 
imperfect, but I think we strive to be the very best we can and 
try to get as close as perfect as we can.
    So the first question I am going to come back to you all on 
will be if we take commanders out of the discipline and 
accountability process, what would be the impact on the mission 
or the impact on morale and unit integrity from your opinion?
    Secondly, how would you address the ranking member's point 
that there are different spanks for different ranks? So I want 
to come back to you all on that, give you a chance to think 
about it.
    Mr. Fine, my data shows we have 23--or 2,327 senior 
leaders. 963 of those are general officers. Roughly, if you 
could just give an average, what would you say, how many 
allegations are made a year against those 2,327 senior leaders?
    Mr. Fine. About 800. In our testimony, we discuss how many 
have been made over the last 10 years. In 2008, there was 395.
    Mr. Bacon. So 395 out of 2,327?
    Mr. Fine. In 2008. Now in 2017, there is 803.
    Mr. Bacon. Eight hundred?
    Mr. Fine. Yeah.
    Mr. Bacon. That seems like a lot for 2,327 senior leaders.
    Mr. Fine. Those are the allegations, correct.
    Mr. Bacon. Okay. Out of those allegations, how many 
substantiated, just to put it on record here?
    Mr. Fine. Eighty-three.
    Mr. Bacon. So 83. And what would that come out as a 
percentage? I guess it is 34 percent I think you had of the 
allegations that were substantiated?
    Mr. Fine. Well, of the cases that we actually investigate, 
30 percent of them are substantiated.
    Mr. Bacon. About 30 percent are substantiated. And they 
range from overdue reports to the more serious?
    Mr. Fine. Correct.
    Mr. Bacon. So many of these are things that would nowhere 
would be considered criminal in the private sector.
    Mr. Fine. Most of these are--very few, a very small 
percentage are criminal.
    Mr. Bacon. If you just give me your thoughts, how many 
would you say senior leaders have done something criminal, 
sexual assault, for example, out of this last year's data? One 
or two, three or four?
    Mr. Fine. Very few have done criminal misconduct, except I 
will mention the GDMA case, the Francis case, which is a----
    Mr. Bacon. Right. Which is criminal, got it.
    Mr. Fine. Which is criminal.
    Mr. Bacon. So we are talking less than a handful out of 
this 2,300-plus senior officers have done something criminal?
    Mr. Fine. Yes.
    Mr. Bacon. Thank you very much.
    One other thing, one of the things that concerned me as a 
five-time commander is the length of time it takes to 
investigate. When you have people under investigation for 2 
years and then exonerated and their career is over, it seems to 
me that we have to do something better there. I mean, just as a 
person--I have never been investigated, thankfully, in five 
commands, so I have been blessed, thanking the Almighty, but I 
know some people have been under for 2 years and then they are 
exonerated, you are like, man. Is there anything we can do 
better there?
    Mr. Fine. I think there is. We do strive for timeliness. We 
recognize that when you are under investigation, your promotion 
is held up, sometimes you can't retire, you can't be moved, and 
it is difficult to be under the microscope, and many of them, 
most of them are cleared in the end. So we do strive for 
timeliness.
    With the number of investigations, the number of 
complaints, the resources, we also want to be thorough and 
accurate, so it is a balance there. On some of them we can 
handle quickly, some of them take longer. Having said that, all 
of the IGs, we and the service IGs, are moving to try and 
increase our timeliness without sacrificing quality, accuracy, 
and thoroughness.
    Mr. Bacon. Well, thank you.
    Now I will go to our service reps. And I will go to the 
first question, if we take commanders out of the process here, 
what do you think the impact is on your service?
    General Quantock. Sir, it would be absolutely devastating. 
I have commanded from company all the way up through three 
times as a two-star commander. Absolutely devastating if you 
take--you know, we are not Walmart. We send soldiers to do very 
dangerous things. I lost 13 soldiers as a brigade commander, 
over 200 Purple Hearts. I tell them to go out there and protect 
terrain, to escort convoys. They put their lives on the line. 
So some folks, you know, may have problems with some of the 
orders that I give. But we have to give them.
    So it would be devastating. So to be able to have control 
over the carrot and the stick, for another word that you could 
use, carrot and the stick, you have got to have a lot of 
carrots, but you also have got to have the stick to hold people 
accountable and to uphold the high values that we have in the 
Army that are not due for--that are not really applicable to 
Uniform Code of Military Justice.
    It would be absolutely devastating. And we are, right now, 
the greatest service the world has ever seen, and we would 
become a third-world country, a third-world army if we were to 
remove commanders from the Uniform Code of Military Justice.
    Mr. Bacon. General Quantock, thank you. I will come back on 
the different spanks.
    General Quantock. Okay.
    Mr. Bacon. Admiral Shelanski.
    Admiral Shelanski. Yes, sir. I will agree with General 
Quantock. Certainly, it is about good order and discipline. And 
in terms of being--having the UCMJ capability at the commander 
level is essential for that good order and discipline and the 
morale of the crew, because they expect also fairness and 
justice throughout their command, and they hold each other 
accountable. And when one of their shipmates is not doing the 
right thing, they want them to be held accountable, and that 
has got to be done quickly and efficiently.
    Mr. Bacon. I saw that in the Air Force. We had a commander 
downgrade a court-martial, and he was held accountable for it.
    With that, Chairman, I will come back for my second round 
to finish these two rounds of questions for the service reps.
    So, General Harris, I will come back to you later on my 
second round with that. Thank you.
    Mr. Coffman. Ms. Tsongas, you are now recognized for 5 
minutes.
    Ms. Tsongas. Thank you, Mr. Chairman.
    You know, I think we would all agree that the military is a 
rightly honored institution. We would not be the country we are 
without it. But as we have heard and is so true, it is not 
perfect and those serving are not perfect, so it is important 
that there is a process in place to look at senior leader 
misconduct.
    So as we engage in the oversight of this process, and I am 
grateful for this hearing, I think we have to be reassured that 
the process is not biased in favor of those senior leaders 
being investigated. So I have to say at the outset, it really 
concerns me that in each service it is a general officer who 
functions as an inspector general. It just seems to me that 
there is an inherent conflict there and possibly an inherent 
tilt in the process in favor of the general officer.
    I don't necessarily want you all to comment on it, but I 
think it is something that we all have to take into account. 
But given that that is the fact, I am curious, who provides 
oversight of all your work and makes sure that there is no 
inherent bias, that it is being performed correctly to meet--to 
be sure that we are truly identifying misconduct and holding 
general officers responsible? So I would like to start with 
you, Mr. Fine.
    Mr. Fine. So we as the DOD OIG do provide oversight over 
the service IGs. We review their reports to make sure that they 
are thorough and complete and have done all that they should do 
to track the leads, to investigate, to interview the 
appropriate people. So we do that level of oversight.
    We also have begun doing what we call quality assurance 
reviews, similar to a peer review, to look at their processes, 
their procedures in a systematic way to make sure they are 
following the rules and regulations and they are adhering to 
quality standards and are doing the right thing. So we provide 
that oversight.
    One of the questions that is often asked is, well, who 
oversees us. We are overseen by other IGs. The CIGIE [Council 
of the Inspectors General on Integrity and Efficiency] has a 
peer review process, and we are also regularly overseen by the 
GAO [Government Accountability Office]. So there is oversight 
over us, and we provide oversight over them, and that is a good 
thing.
    Ms. Tsongas. Do you have the ability to refer a case back 
if you think it hasn't been appropriately investigated?
    Mr. Fine. Yes, we do, and we do that.
    Ms. Tsongas. And how often have you had to do that?
    Mr. Fine. I don't have the exact numbers, but there are 
occasions when we do do that. We review the report. And there 
are times where we think they have not fully investigated or if 
they reached a conclusion that is not supported by the 
evidence, we refer it back to them for additional work.
    Ms. Tsongas. I don't know if each of you would like to 
comment how you do your job in a way that you feel is 
fairminded, given that you represent and come out of the 
service you are overseeing.
    General Quantock. Yes. Yes, Congresswoman. I would just say 
a couple of things. Number one is, in my last job I was a CID 
[U.S. Army Criminal Investigation Command] commander, so when I 
left that job, I had three friends, and after this job I have 
no friends. So the fact that, you know, this is not a highly 
sought after--well, maybe some for the--highly sought after job 
because we make hard calls with the DOD IG oversight. It is a 
very fair process.
    Just about the investigators that do a majority of my cases 
are civilians, so they--and many of them have extensive years 
of experience. One of my investigators has got 18 years. 
Another has got 10 years of these kinds of cases. So it is very 
well.
    And not only that, we have many levels of legal review of 
these cases to ensure we are doing due process both for the 
complainant and for the subject. Once an investigation is done, 
legal review. After that, it goes to my lawyer. He does the 
legal review. After that, it goes to the Office of General 
Counsel for their legal review. After I have had three legal 
reviews and I have read the case and I understand the case and 
I agree with the findings, I sign the case.
    Ms. Tsongas. Are the findings conclusive or can you reject 
the findings?
    General Quantock. I have never rejected the findings that 
have been brought to me. So after all of the scrutiny that goes 
on with these things, I can almost exclusively say I don't 
think I have overturned one case that has been brought to me. I 
sign it, and it goes to DOD OIG for their oversight review. So 
it is a very fair and thorough process.
    Ms. Tsongas. So there is only somebody higher up in the 
chain that could reject the findings or would likely reject the 
findings?
    General Quantock. After we get done with a case, it gets 
adjudicated for cases, and that is what happens. Once it comes 
down as substantiated, we are just calling balls and strikes. 
We are saying did they violate a regulation, yes or no. If the 
answer is yes, that the substantiation holds, even if it is for 
small technical violations, then it goes--after the DOD IG 
review, it goes over to the lawyer side of the Army, the TJAG 
[The Judge Advocate General of the United States Army]. The 
TJAG basically puts the case together and brings it to the 
adjudicator, the Vice Chief of Staff of the Army. And the Vice 
Chief of Staff, under advice of counsel, holds the person 
accountable, according to due process and according to the 
facts of the case and what he has been substantiated for.
    Ms. Tsongas. Well, I appreciate--we don't have time to hear 
from everybody, but still I do think it is deeply concerning 
that you are generals in the service you are overseeing, and I 
do think a civilian oversight perhaps would at least eliminate 
the appearance----
    General Quantock. Congresswoman, we have a lot of civilian 
oversight, but our Army is made up of soldiers, okay? The vast 
majority of our Army is soldiers, and I believe, having been a 
commander a number of times, I also can look at the case and 
also understand, you know--because, again, we are representing 
the Army. I am the Army Inspector General. And I think from our 
soldier's perspective, at least the vast majority who are 
soldiers and know the fact that the person calling the shots at 
the IG has been a former commander themselves, from the time I 
was a captain all the way up to my last position, I think it is 
important that that person is a soldier, a sailor, or an 
airman, Marine.
    Ms. Tsongas. We can agree to disagree. Thank you. My time 
is up.
    General Quantock. Yes, ma'am. Thank you.
    Mr. Coffman. Dr. Abraham, you are now recognized for 5 
minutes.
    Dr. Abraham. Thank you, Mr. Chairman.
    Just a statement first. As a Congressman, certainly, I 
think as the general public we want to know that the process is 
intact. And what I am hearing from the panel is that the 
process is good and that it is accountable and, more 
importantly, it is responsible for the actions that are found. 
Certainly, as a physician, I am judged by my peers on the 
physician side, so, you know, I think it is--you have got to 
have peer review, and I certainly don't think there is any 
conflict there that--from being reviewed by your peers.
    When I have asked for private conversations with several of 
the vice chiefs behind you, I have gotten them and there have 
been very forthcoming answers to direct questions, so I 
appreciate the openness that you are affording me.
    So, again, just a statement that I like the process. I 
think the process is good, and what I am hearing is that the 
process is working, because we are seeing a decrease, not only 
in the severity of the accusations, but in the total number 
too.
    And I am going yield the rest of my time back to General 
Bacon so he can continue his dialogue.
    Mr. Bacon. Thank you.
    What would be the impact of taking the commanders out of 
this discipline process? General Harris, what would be your 
perspective from the Air Force?
    General Harris. Sir, I agree with my peers. It would be 
absolutely devastating, and it would, you know, erode the good 
discipline and order of our force.
    And then as far as disparity in punishments, our data that 
I have reviewed doesn't support that. We hold our officers 
actually to a higher standard of accountability. And there is 
actually two other articles of the Uniform Code of Military 
Justice, 133, which is conduct unbecoming, and 134, which is 
fraternization, which holds us accountable.
    Mr. Bacon. Thank you.
    General Ottignon.
    General Ottignon. Sir, I agree with my peers as well. I 
think removing the commander from the process would have grave 
implications to the good order and discipline of the 
organization, a fighting organization. And I agree also that 
the data doesn't show that. I think we hold our senior leaders 
more accountable in the Marine Corps.
    Mr. Bacon. Thank you.
    Going back to General Quantock and Admiral Shelanski on the 
different spanks for different ranks, any feedback on that?
    General Quantock. Yes, Congressman. I would tell you, if I 
had to look at all the cases that I have looked at in my last 
job as a CID commander and, of course, now as the IG, it is 
about 6\1/2\ years, I would tell you it is huge, hugely swayed 
on the part of a general officer being crushed, okay, for a 
substantiation. And how is that? Well, what is the most 
egregious--usually the most egregious kind of offenses that we 
have general officers? Inappropriate relationships.
    Now, I have adjudicated sergeant first classes, junior 
soldiers for inappropriate relationships. They would get a 
letter of reprimand. Same thing that we would give a general 
officer, a letter of reprimand. However, on the general officer 
side, they are done. And the sergeant first class isn't going 
to get promoted either, but he isn't going to go backwards. 
That general officer is done, okay, and a lot of times he will 
retire at a grade a lot less. So he is effectively being fined, 
in case for retirement, hundreds of thousands if not millions 
of years when you have a major general go back to the rank of 
lieutenant colonel.
    Now, we can discount the fact that that soldier has been in 
combat multiple times, and that is what we would like to do 
sometimes by saying, well, we should just take his retirement 
away, but what we have done is separated him from his family 
multiple times, sometimes years at a time, and then we say the 
person doesn't deserve anything? Again, a lot of times we 
forget about that none of us at this table came in the Army as 
generals. I spent 27 years coming up the chain just like 
everybody else, and I have been 11 years as a general officer. 
I can tell you we crush general officers, and should they be 
crushed for these kind of offenses? Absolutely. They know since 
the time they were second lieutenant what is right and what is 
wrong. And when they do it, they expect the consequences, and 
we should hold them accountable.
    Mr. Bacon. I know I felt that way as a general officer in 
the Air Force. Thank you.
    Admiral Shelanski.
    Admiral Shelanski. So I agree. And one particular case that 
we would have that I could give you as an example. So a flag 
officer viewing pornography on a government computer on a ship. 
That type of work, should it have happened with an enlisted 
sailor, that enlisted sailor would probably be brought to mast, 
probably reduced in rate, withheld pending further, you know, 6 
months, and then taken their rights away to utilize that 
computer. And then once that 6 months was up, they would be 
back in their job continuing as a sailor onboard the ship.
    Flag officer, removed from his position, his command, and 
retired as an O-6. Much harsher and much more deeply pressing 
for his career.
    Mr. Bacon. One question I will just leave for anybody's--if 
they want to, you know, answer the question, does anyone here 
think it would be better to bring a judge from the outside to 
adjudicate these or does anyone here think a district attorney 
outside of the military would do this better?
    General Quantock. Only if you want to make the system much, 
much longer and hold people in suspended animation forever. 
That is the problem when you go to a purely jurisprudence 
system. We all have advice and advice from SJAs [Staff Judge 
Advocates]; we are not legally minded, but I get advice as a 
commander from many different individuals. So I think that 
would be a huge mistake.
    Also, what I have been trying this 38 years that I have 
been in the Army, I have been trying to find the perfect 
profession. So as I look around all of the professions out 
there, I haven't found one. We are not either, but we try real 
hard to be that, and we hold people accountable, even for minor 
discretions or minor violations of Army regulations.
    Mr. Bacon. Thank you very much.
    And I thank Dr. Abraham for yielding to me, and back to the 
chairman.
    Mr. Coffman. Dr. Wenstrup, you are now recognized for 5 
minutes.
    Dr. Wenstrup. Thank you very much. Thank you all for being 
here to approach a very difficult topic for everyone involved. 
I will say, and especially with what you just said, General, 
you know, they say, ``To whom much is given, much is 
expected,'' although I wouldn't say rank is given; it is often 
earned, but the expectation is much greater. And I think that 
is a fair assessment. You do expect more from your officers and 
especially your general officers as you go up in rank. So I 
appreciate that feedback.
    Mr. Fine, you mentioned earlier about gathering data from 
the IGs. So what do you see down the road with this? Is it 
going to set maybe a tone for what type of punishment is 
appropriate or what legal actions we need to take? What do you 
expect to gain from that as that comes together?
    Mr. Fine. Well, we regularly gather that data and have, and 
I think it is important to report that for transparency to see 
what is going on, even by service and by rank and by offense. 
So we will continue to do that. It provides transparency on the 
process, which is a good thing. I will mention one thing that 
we intend to do is also to look at this issue about the 
disparities, and we have--we are going to open a review and 
evaluation to see if there are disparities that jump out.
    Now, sometimes the disparities are because the cases are 
different, and that is very hard to analyze. But I think, in 
some ways, it is important to look at the overall statistics, 
the numbers, and see if there are anomalies that jump out 
either by rank, by service, by gender, by race, by all sorts of 
stratifications, and we intend to do that. I think that is a 
useful exercise.
    Dr. Wenstrup. So you are really looking for, I guess, best 
practices, if you will, when it comes to setting guidelines. I 
mean, every case is different, and so you don't want to say 
this is the mandatory sentence for this, you know, because you 
want to take the case in its entirety. But are you expecting to 
have guidelines from this?
    Mr. Fine. No, I don't think we are going to have 
guidelines. That is up to the services to implement corrective 
action. But it is important to see what is happening and to 
analyze that and to evaluate that. In terms of guidelines, I do 
think there ought to be standardization and guidelines for how 
we conduct the investigations----
    Dr. Wenstrup. Okay.
    Mr. Fine [continuing]. And to make sure that it is 
relatively standard throughout the DOD so that if you are 
subject to an investigation in the Air Force, you are not going 
to be treated differently than if you are in the Navy. I think 
that is helpful, that is important, so that there are 
standardized, timely investigations, and we intend to look at 
that as well.
    Dr. Wenstrup. So are you far enough along at this point 
where you would maybe be making suggestions or just pointing 
out the differences or----
    Mr. Fine. In terms of the standardization?
    Dr. Wenstrup. Yes.
    Mr. Fine. Yeah. I think there are some suggestions that we 
have made and we will continue to make. One, there ought to be 
a standardized case management system, a database, and we all 
use it so that we track it and record it in similar ways and we 
share information in a similar way. I think we ought to sort of 
consider formats, formats of reports to be standardized; that 
will speed things up as well.
    I think we also ought to consider--there may be some 
disagreement here--but sort of a tentative conclusion process 
to give the subject an opportunity to comment on the report to 
show if it is inaccurate or not. We do that. On the other hand, 
that does lengthen the timeline a little bit because it gives 
them time, and sometimes, as a result, you are required to do 
more work, and that is the tradeoff. But I think that is a fair 
process, and it gives them fairness and due process and 
ultimately will make the decision on what is the ultimate 
finding.
    So I think those are the kinds of things that could be 
useful to standardize. And I have had discussions with the 
service IGs as well on that. We will continue to pursue that.
    Dr. Wenstrup. Thank you very much.
    And I want to thank you all for engaging with us on this 
very difficult and important issue. Thank you.
    I yield back.
    Mr. Coffman. Mr. Kelly, you are recognized for 5 minutes.
    Mr. Kelly. Thank you, Mr. Chairman and Ranking Member. This 
is an important hearing.
    I want to go back kind of on the line that General Bacon 
had, or Congressman Bacon. Members of the service, especially 
senior level leaders, whether they be command sergeant majors 
or general officers, would you agree that they are more hard on 
people for disgracing their uniform and their rank and their 
awards than a civilian would be, because many times do you 
think civilians are in awe of the things that you do and, 
therefore, kind of give you a pass because of your service, and 
a sitting other general who has done the same service is less 
likely to be in awe of your career and the things you have 
done? Would you agree with that?
    General Quantock. Well, sir, I would just say that I don't 
know if ``awe'' is the word. I think respected. My father was a 
Vietnam vet. I will tell you the way they were treated back in 
those days was incredibly poor. But I will tell you, there is a 
lot of respect among us, but, yeah, of course, the people that 
understand the culture--culture is a big deal in the military, 
and it has evolved over time. I have seen huge changes for the 
good since 1980 until the present day, and we continue to 
change that culture for the good. But to make a complete 
statement that civilians--I mean----
    Mr. Kelly. Not necessarily in awe, but they tend to give 
you the benefit of the doubt when maybe a peer or someone of 
the same or a higher rank would not want their uniform 
disgraced.
    General Quantock. I would absolutely agree. The 
professionalism of our noncommissioned officer corps is second 
to none. And I have sat on many promotion boards with them, and 
they get down to the standard of a particular individual, get 
down to the----
    Mr. Kelly. Let me rephrase. Would you as a general officer 
in your job cut someone a break, another general officer, 
because they are a general officer? Or would you be harder on 
them because they disgraced the rank that you worked so hard to 
earn?
    General Harris. Harder.
    Admiral Shelanski. Harder. Absolutely. Absolutely.
    Mr. Kelly. And I want to go back just a second, General 
Quantock. I think we have actually been in the same places a 
couple of times. I looked at your bio, and I was at Taji in 
2009 and 2010, and I think you were overall, and of course, we 
had a facility there.
    I want to ask you, Lieutenant General Ed Cardon recently 
commented to the AP [Associated Press] that the Army is 
reviewing ways to improve the senior officer corps through 
pilot initiatives. And can you please expand on one or more of 
these initiatives and explain how they reinforce ethical 
behavior in general officers?
    General Quantock. I will just tell you: It is a holistic 
study by the Chief of Staff of the Army, and the vice will have 
much more on this than I do. But, really, it is a study on 
basically the health of our general officer corps. Particularly 
with the last 15, 16 years, we have run this general officer 
corps into the ground. Not to mention our soldiers, our 
sailors, our airmen, and our Marines. We have run this force 
into the ground.
    Many of us have been away from home years at a time. So--
but what--we never take a day off. When I am on leave, I am 
attached to my BlackBerry and on my phone. My wife and I have 
these discussions many times. Okay. I am never disconnected 
from the Army. I lose leave every single year. Even though we 
make sure that our subordinates take their 30 days of leave, we 
never take--we basically--we put it over weekends; we don't 
take any leave.
    So the health of the force really requires us to give those 
general officers a little bit of reprieve. So, from making them 
take their leave----
    Mr. Kelly. Let me move on to the next question. I want just 
a little more answers on things. In my experience in the 
military of people going forward for GO [general officer] 
boards or general officers or senior level leaders in the 
military, it has been my experience, my personal experience, 
that I have seen far more people punished and prevented an IG 
complaint to hold up a guy who the promotion board goes past 
his MRD [mandatory removal date], and so he never makes general 
officer, or he doesn't make O-6, or they don't make O-7 or O-8.
    Has your experience been that far more senior leaders are 
punished by being held or flagged for negative transactions by 
an IG complaint that is not substantiated as to those who get 
away with doing something wrong and never get punished?
    General Quantock. Yes, sir. And that is the elephant in the 
room. That is the whistleblower reprisal issue. When we talk 
about numbers, whistleblower reprisal has skyrocketed because 
of the misuse and misapplication of whistleblower reprisal 
against senior officials. It is off the charts. I have been 
investigated twice for whistleblower----
    Mr. Kelly. Let me just real quick--and you guys understand. 
Junior members know--or junior members of the military know if 
they have a commander they don't like for some reason, that if 
they file an IG complaint at the right time, it can end his 
career, even though they have done nothing wrong and nothing to 
substantiate it. Is that correct?
    Admiral Shelanski. That is correct. So we, you know, we can 
see a rise in complaints right around the time that the list 
comes out.
    Mr. Kelly. Mr. Chairman, I yield back.
    Mr. Coffman. Ms. Rosen, you are now recognized for 5 
minutes.
    Mr. Russell, you are now recognized for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman. And thank all of you 
for being here.
    I guess, Mr. Chairman, I don't understand why Members of 
Congress want to trash the Uniform Code of Military Justice. It 
is the one glue that holds our military together. We can 
critique it. We can oversee it. We can hold it accountable. 
But, God forbid, if people in the political environment ever 
trash the Uniform Code of Military Justice and get rid of it--
you think we have screwed up the military good now, put it in 
the hands, with no UCMJ, and put it out there where we have 
people with no understanding of the institution that create, 
Lord knows what, good order and discipline, decisions, 
battlefield decisions that commanders have to make, that would 
all be eroded and gone. And we would feel good about it, and 
then we would hold our hearings and pound fists on tables and 
point bony fingers talking about what went wrong as honorable 
people sit here before us and holding them to account.
    And, yes, Mr. Chairman, I am on my high horse.
    How many of these offenses, General Quantock, were 
discovered outside of the military?
    General Quantock. Sir, I can think of one where actually it 
was the press--it was an individual that decided to go to the 
press----
    Mr. Russell. So only one out of all of the hundreds or even 
thousands of accusations, they were all discovered by the 
institutions.
    General Quantock. Yes, sir. Some were anonymous complaints.
    Mr. Russell. Now, where I come from, that is the hallmark 
of professionalism. You don't see that at IBM, and God knows we 
don't see that here in Congress. So I guess the question would 
be, why is it we think that it is a broken system? Yes, we have 
problems. Yes, we see oversight that Congress has to be 
responsible of, and we have civilian control of the military, 
and that is the great Republic that we all serve.
    But it is somewhat a little bit offensive to suggest that 
the institution is unprofessional or somehow broken because it 
discovers its own problems. In the business community, people 
would love to have those problems. Congress, gosh, we would 
love to have our own accountability where we discover the 
problems before the American public does.
    In terms of generals overseeing the military, wow, gosh, 
that is kind of like Members of Congress overseeing government. 
How could that be? The military has a better rate of 
accountability than society as a whole, certainly better than 
Congress, and perhaps even better than Hollywood, when it comes 
to offenses and things like this that we see.
    So I guess my question would be, what would be the damage 
that we see as we continue to inflate the problem, not saying 
ignore the problem--we have to take these things seriously, we 
have to hold them to account, we are doing that, we see that--
but when it becomes inflated--and as was mentioned by my 
colleague from Mississippi, IG complaints come up, and then, 
you know, here come the investigations. And I have known many 
great warriors who were held from senior level command, were 
later exonerated after a 2-year period. They would have been 
able to keep men and women alive in battle and do great service 
to our Republic, but they never got the opportunity because, 
because, because.
    Could you speak to some of the other problems in your 
capacity as inspector general that, when someone is exonerated, 
do they ever get their life back? Are they ever restored, or 
does the ship just pass them by?
    General Quantock. Sir, both happens. Sometimes the ship--it 
is based on timing. But sometimes the ship sails because 
investigations take long. I will tell you, just the other day--
a couple months ago, I had a division commander that just came 
back from Afghanistan, and I won't talk about his name. But he 
comes in my office, he said: Sir, I am getting ready to resign. 
I have had it. I have absolutely had it.
    A disgruntled employee, a week before his change in 
command, knowing the effect of it, throws an allegation out 
there. Now, what happens is, of course, we spin up an 
investigation. He is flagged, no award at the end of a division 
command, despite his sacrifices to himself and his family. The 
FORSCOM [U.S. Army Forces Command] commander was coming down 
there to pin an award on that guy, but that is off, but he 
still was going to a pin an award on the spouse. The spouse 
told her husband, said: I don't want the damn award. Okay.
    So the families also were impacted on this because they 
also sacrifice. So one day we are going to wake up, if we keep 
this, we are going to wake up one day and realize, who the heck 
wants to serve? Because we put people through hell. We put 
families through hell. We put the soldiers through hell. We 
work them like dogs. We deploy them into combat. We bring them 
back, and here is your thanks. You are leaving without award. 
There is this cloud over your head, possibly lost your 
reputation. And then eventually he probably would get--he will 
get exonerated, and then he will be--because I have looked at 
the case, and there is nothing there.
    This is the whistleblower reprisal. I have been 
investigated twice for whistleblower reprisal when I came here 
because I held somebody accountable because they beat up a CID 
agent, beat up his weapon, pulled his weapon on his neighbor. 
And because he sent a protected communication to Congress about 
wanting to deploy and his unit said no, I got held up to 6 
months. Or I downgraded an award from an MSM [Meritorious 
Service Medal] to an ARCOM [Army Commendation Medal]. I am on 
the awards board. I had no idea about the protected 
communication. Another 4 months. We do this to the general 
officer corps, not to mention to the entire Army all the time. 
The reason why the numbers are so high from DOD IG about the 
rise in complaints is because the misapplication of 
whistleblower reprisal.
    The law is good. It talks about gross waste of funds. It 
talks about intent to kill or cause serious bodily injury to 
the members of the Armed Forces. It talks about grievous 
things, not downgrading an award. That is the problem we have. 
We have hijacked the system, and there is a cloud over the 
general officer corps because, right now, we are getting 
hammered.
    Mr. Russell. I thank the chairman.
    And the only parting comment I will say is that people are 
dragged into the IG to serve in IG capacities. They pick them 
from some of the best performing folks that are out there. They 
go kicking and screaming. They don't want those assignments. 
They call all of the favors in to try to avoid them, and they 
still have to go. And so my hats are off to all of those that 
serve in our inspectors general departments within our 
military.
    Thank you, Mr. Chairman. I will yield back.
    Mr. Coffman. Ms. Speier, you are recognized for 5 minutes.
    Ms. Speier. I feel compelled to speak because we have an 
obligation as Members of Congress to do oversight. When 400 
service members are implicated in the Fat Leonard scandal, when 
over 60 admirals are potentially implicated, we have an 
obligation to look at the process. So I take great umbrage, 
frankly, that it is suggested somehow that we don't have a role 
here.
    The Uniform Code of Military Justice is not on trial here. 
We live by the Uniform Code of Military Justice in the 
military. I mean, there are elements of it that I am not 
particularly excited about, but for the most part, it is a--
frankly, a victim-centered code. We have made some changes over 
the years, but what we are really looking at is a couple of 
things, from my perspective.
    Why is Congress oftentimes the last to know? We have 
oversight responsibility. You should come to us when you have 
got an issue with a senior officer and let us know so we are 
not reading about it in the newspaper. When you have a scandal 
like the Fat Leonard case in the Navy, it is incumbent on us to 
look at that case in particular and see, why is it no 
bystander, no bystander felt that they could come forward?
    And to Lieutenant General Quantock, whistleblower 
protection, I would argue, is not enough protection, and that 
is why people don't come forward because they fear that there 
will be reprisals. There were too many people that were engaged 
in conduct unbecoming of officers in that case, and no one 
called them out.
    Now, let me now ask a question. I would like from each of 
you to know what your backlog is, quickly, if you could.
    Mr. Fine. We have a significant number of open 
investigations, and we report them and----
    Ms. Speier. Do you have a number?
    Mr. Fine. I can get you the exact number.
    Ms. Speier. I just want to get numbers at this point to see 
whether or not we have got staffing issues.
    Mr. Fine. We do have staffing issues. The complexity, the 
number of cases that have risen, the number of cases that we 
have to do, and we take them seriously. We take each of them 
seriously. And you can only do more with less for so long, and 
it does affect the timeliness of the investigations and how 
long people are hung up.
    So I do believe that it is important to adequately resource 
IGs, both us and the service IGs. They are not the first people 
that they think of when they are growing the military. But you 
need to grow----
    Ms. Speier. Okay. I have got limited amount of time. How 
many additional staff do you think you need?
    Mr. Fine. We could use 100 more additional staff. We have 
1,600 employees. That is not that much. I think we could use a 
significant number more.
    Ms. Speier. All right.
    Mr. Fine. I can give you more statistics and sort of basis, 
but we need significant resources, as do they.
    Ms. Speier. All right.
    Lieutenant General.
    General Quantock. Yes, Congressman, we have 50 open senior 
official cases going on right now. I have 20 investigators. I 
could easily double that. The average case is about over 400 
days. Whistleblower reprisal, a separate division, I have 
another 20 people doing that. I have 345 open cases. Average 
length of a case is 391 days.
    Ms. Speier. Okay. Thank you.
    Vice Admiral.
    Admiral Shelanski. Yes, ma'am. We have over 200 cases that 
are open at this time, and we are just now finishing up and 
getting up to our 2016 cases. So there is some lag time because 
of the numbers of investigators. But I would have to give you a 
specific number later, if that is okay.
    Ms. Speier. All right. Thank you.
    Lieutenant General.
    General Harris. Congresswoman, we welcome the opportunity 
to partner with you on assessing our needs for plussing up our 
forces. I would like to take that question for the record and 
understand that our average investigation takes 187 days.
    Ms. Speier. So yours take about half the time as the Army. 
Is that right? Sounds like?
    General Quantock. It sounds like it.
    Ms. Speier. I think we should probably look at that. Why is 
it one service can do it----
    General Quantock. One service is much bigger than the other 
service. The amount of service members does have an impact; but 
I am not sure, I would have to look at the numbers.
    Ms. Speier. Yeah, I think we should look at the numbers.
    Brigadier General.
    General Ottignon. Ma'am, I have 11 open cases on general 
officers. I have 26 whistleblower reprisal cases open. I have 
300 total cases--just over 300 cases open. I average 233 days 
for a senior official investigation. And the remaining 
investigations are upwards of 300 days.
    Ms. Speier. Okay. I think we need to be sensitive to the 
time it takes for these cases. We need to up, I think, the 
service to the person who is charged and to those who are 
actually providing the work among your--those who are employed. 
At another point in time, I would like to know, in terms of 
your investigators, how many of your investigators are 
civilians? So I will take that for the record, if each of you 
could provide that to me, as compared to those who are in the 
military. Thank you.
    [The information referred to can be found in the Appendix 
on page 137.]
    Mr. Coffman. Mr. Abraham, you are recognized for 5 minutes.
    Dr. Abraham. Just to follow up. Again, the process is good. 
In my opinion, it is working, simply because of the results 
that you all have had to this point. Moving forward, General 
Harris, you mentioned it a little bit in one of your answers. 
Since this is an open hearing, let's let the general public 
know, what are the services doing proactively from that second 
lieutenant up to that four-star to help prevent this from 
occurring over and over again?
    General Harris. Thank you, Congressman, for the opportunity 
to respond to this. So, proactively, two areas, prevention and 
training. So, first, training. So, from the youngest airman, 
whether you are an officer or enlisted, through every course of 
leadership that you go through, you have an ethics training, 
whether it be squadron officer school or airman leadership 
school, all the way up to the senior leader officer course, 
which general officers attend.
    Proactively, in the inspector general system, of course, we 
have our inspection process. And so not only are we assessing 
the readiness of our force, but we are assessing the culture of 
that force also and providing that feedback to the commander.
    Reactively, of course, the IG investigates fair, 
accurately, and thoroughly, any investigations, any complaints 
that we have to ensure that we are offering due process in 
upholding the standards of our service.
    Dr. Abraham. Other members? General.
    General Ottignon. Just briefly, sir. I would suggest that 
it begins at the beginning of boot camp. It begins at the 
beginning of officer candidate school. It is reinforced through 
every service school as they continue in their career, both 
enlisted and for officers. It becomes much more acute as the 
general officer, upon selection, annual requirements that we 
meet each year, as well as my office providing additional 
training each year in the field. So it is often, and it is more 
focused on the ethics piece throughout that year.
    Dr. Abraham. Admiral.
    Admiral Shelanski. Yes, sir. Like the generals just said, 
from the beginning. So midshipmen, whether in ROTC [Reserve 
Officer Training Corps], at the Naval Academy, or officer 
candidate school, get their first taste of ethical training. 
That goes up all through their career. It is mandatory when 
they reach O-5 command that they go up to the Navy War College 
where they go through the Navy leadership and ethics class. And 
then, onward from there, as a flag officer, when they first 
become a flag, they have ethics training.
    I personally go to many of these classes. In fact, I either 
virtually or in person to talk about cases and where fellow 
commanders and flag officers before them have crossed the line.
    Dr. Abraham. General Quantock.
    General Quantock. Yes, sir. It is similar across all the 
services. The additional thing is that we put a lot of focus on 
the general officer education. Many different levels, that 
every time you make a step, you get an ethics brief, every 
year, you are getting an ethics brief.
    I would also say that we also have to really get after it 
at the battalion and brigade level, lieutenant colonel and 
colonel level. At our pre-command course, you know, we have 
extended it to 2 weeks. So they get SJAs, and of course, they 
get me for an hour and a half because--and I have not missed 
one in my 3\1/2\ years as the IG and 6\1/2\ years when you talk 
about my CID time, because prevention is really the key.
    If we can prevent people from walking into mistakes, that 
is the key. And 99\2/3\ percent of our soldiers out there want 
to do the right thing, but sometimes they walk into it. So our 
goal is to prevent that from happening.
    Dr. Abraham. Thank you.
    I yield back, Mr. Chairman.
    Mr. Coffman. I recognize myself. So one of the concerns is 
the length of time that it takes to go through this process. 
One element of that is certainly the resources in terms of the 
number of personnel we are throwing at it. But is there 
anything we can do procedurally to change the process to hasten 
it, to get, you know, it is just--it is unfair to a lot of 
parties to just tie this thing up for so long.
    Mr. Fine, do you have any recommendations?
    Mr. Fine. I do think a uniform process could help speed 
things up, standardized databases, standardized formats, so 
that we know what we are doing and we can do that more quickly. 
I do think there ought to be sort of an assessment at the front 
end in the intake level whether there is sufficient indicia of 
credibility that it warrants an investigation. And then, if 
there is indication as the investigation is going along that 
there is a fundamental deficiency in the allegation, that it is 
not substantiated, we can close it in a reasonably timely way.
    Mr. Coffman. Sure.
    Mr. Fine. So I think those are things that can be done. And 
I do think resources, as I mentioned, is significant.
    Mr. Coffman. Any other comments on this?
    General Quantock. Yes, sir. And the point that I would 
make, if I haven't mentioned reprisal, I would like to mention 
reprisal again. Forty percent of my senior official cases are 
caught up in reprisal because they basically have held somebody 
accountable. So some better guidance to DOD on how they 
basically interpret reprisal law so that just the significant 
ones fall under that and not everything. Downgrading an award, 
you know, hold somebody accountable because they beat somebody 
up and pulled a weapon on them. Somebody had--a doc who was on 
cocaine. Reprisal.
    I mean, it goes on and on and on, the amount of cases, 
because all I have to do is have a protected communication 
followed by any kind of unfavorable personnel action, we are 
off to the races on a whistleblower reprisal case. And, again, 
average time is 391 days.
    If we get some help, some guidance on that piece--I mean, 
again, it is good law. It is there for very good reasons. But 
if we could get some help in that particular area, that would 
help on the resource piece as well.
    Mr. Coffman. Okay.
    Admiral Shelanski. Yes, sir. We have initiated a couple of 
prototypes about intake analysis, and it has been very 
profitable in terms of timesaving. So we continue to look at 
process improvement.
    But part of the issue besides that is IT [information 
technology]. And I think, you know, as we continue to have to 
scan documents and manually input things into the computer 
system, it is a huge waste of time.
    The effort by DOD to make one type of system that we all 
can manage electronically eventually will save us a large 
amount of time and effort that right now is taken up with just 
antiquated systems that just eat up a lot of time.
    General Harris. Our timeliness factors are really based on 
the complexity of the allegation that we are investigating, the 
volume of complaints, and then the availability of witnesses, 
takes great time. But last year, we ran a process improvement 
event, which got us down to the 187 days, and of course, we are 
still looking to get it down even further.
    General Ottignon. I would say that the Marine Corps is very 
supportive of that law. I mean, that statute, we have great 
confidence in it. Any changes that we have made over the 
previous years obviously has a trickle-down effect to us 
through the Department in procedure and policy. Statute of 
limitations would be a perfect example of review of how 1 
year's worth of time, as the general has alluded to in 
examples, that is a pretty wide aperture that can provide us 
the complexity of a case that makes that timing go out for 
several hundred days to complete.
    Mr. Coffman. Well, certainly what we want to have is a 
system that we--apparently we do not have right now--where we 
can expeditious--more expeditiously discipline officers in 
substantiated cases, but not hurt their careers and not hurt 
the military as a whole on cases that are not substantiated but 
drag out forever. So we--there is really a need, I think, to 
figure out how we can move this system along faster.
    Ms. McSally, you are now recognized for 5 minutes.
    Ms. McSally. Thank you, Mr. Chairman.
    I really appreciate it. I do want to follow up on that. 
While we do need a process to hold people accountable when they 
have had wrongdoing and we need to make sure that there are no 
dirtbags in senior leadership positions, I know way too many 
examples of very good people who are caught up in this process, 
whose names are maligned, who don't have a chance to defend 
themselves until the investigation is nearly complete. They 
don't even know what charges are brought against them. In the 
court of public opinion, they are already guilty. They are not 
exonerated publicly at all. So they end up--them and their 
families are held in shame for long periods of time, only to 
kind of disappear at the end of a long distinguished career.
    This process--I mean, I hear and I know of way too many 
examples of this. So, when we are talking about these processes 
of sorting out the frivolous complaints, commanders have to 
make tough decisions. Sometimes they have to clean up 
organizations. Sometimes people don't like that. Sometimes 
people have to, you know, be held accountable below them, and 
we have got to be able to protect legitimate whistleblowers 
while also protecting due process for the accused.
    And, again, I have way too many examples that bring concern 
to me about this process, both at the service level and at the 
DOD IG level. So a couple of quick questions. We also I think 
have a culture, by the way, if any of them ask for a lawyer, 
they must be guilty. But then we have investigators that are 
acting like prosecutors, and they are not getting the legal 
advice that they need in order to not be trapped. So I think 
that is a cultural issue, not necessarily a process issue.
    So how long--if an investigation goes on and somebody is 
exonerated, how long does that investigation stay on file? And 
are they kept on file in order to confirm whether that person 
is confirmable to a higher rank or a new job? Can anybody 
answer that?
    Mr. Fine. I can answer to the extent that we accumulate the 
derogatory information, including substantiated findings, and 
are required to provide that to both to Department and the 
Senate when someone is up for promotion. We do it if there is a 
substantiated case. If it is not substantiated, that is not 
derogatory and----
    Ms. McSally. So unsubstantiated cases are kept on file for 
how long?
    Mr. Fine. We keep the files. I mean, we don't get rid of 
the files.
    Ms. McSally. Okay.
    Mr. Fine. But in terms of--it doesn't go into their 
personnel file.
    Ms. McSally. Are we saying that there is no process by 
which they are checking confirmability of any general officers 
with unsubstantiated cases?
    Mr. Fine. When we have a records check process and we do 
that records check and if it is not substantiated, it does not 
come up as a positive on that records check.
    Ms. McSally. So it basically says nothing?
    Mr. Fine. Right. We provide, you know, negative information 
to the Department----
    Ms. McSally. All right. What about the process of an 
individual who is accused not knowing necessarily what they are 
accused of until the investigation--in great detail, again, we 
have heard recently of this happening--until the investigation 
is wrapped up. And then they have to defend themselves after a 
whole package of stuff has been put together, and now they are 
having to, like, go through--down all these rabbit holes to 
figure out how to defend themselves, instead of being upfront 
right upfront. And this is an example from the Air Force.
    General Harris.
    General Harris. We defend our process, which we believe is 
fair and accurate and thorough, and so we take the time to get 
the information from our witnesses and the complainant in order 
to gather all that together, and then, at the end, then we do 
absolutely interview the subject so that they do have their 
time to speak.
    Ms. McSally. Do you see a concern that maybe an accused 
needs to know upfront what they are accused of so they can in 
parallel be preparing themselves to defend themselves because 
sometimes these rabbit holes go deep, and then you are having 
to unwind it if you are just handed this package at the end of 
the whole thing?
    General Quantock. Ma'am, I would just say, you have to be 
very careful because if you start making allegations that you 
just--you can set this individual up for reprisal. We do a lot 
of--DOD IG does it. We do it. We do a credibility assessment. 
In fact, there is a lot of heavy investigative load on the 
front end as we try to see if--if this allegation is in fact 
credible.
    Credible determination is a big piece. Again, we work with 
our DOD IG brethren up here to make sure that we agree, okay. 
So then we will launch an investigation. But we want to get 
some facts together. Because we also don't want to set this 
general officer up, ``Hey, you are under investigation for 
this.'' Well, if that person happens to be under command and it 
may be unsubstantiated, then any time he deals with the person 
who is making the complaint could set this person up for 
reprisal. So we are very careful in that respect.
    Ms. McSally. I hear you, but do you understand the concern 
that I am conveying, that you guys may go through a very 
lengthy process, and then somebody is just handed the----
    General Quantock. But once we determine there is credible--
a credible allegation, that person is basically, ``Hey, here is 
what you are being accused of,'' and we read him rights.
    Admiral Shelanski. And that is the same with us. We have a 
script that, once it is determined to be credible and we are 
going to investigate, there is a script that we read, and you 
are--the complaint is as follows; the following rule and 
regulation has been violated. We tell them to not interview or 
talk to anybody. So there is a whole script to make sure that 
they understand exactly what is----
    Ms. McSally. I hear what you are saying. Again, the vast 
majority of these cases are unsubstantiated and frivolous 
allegations. I am talking about the individual who has served 
their country well, who is now being held up for retirement, 
who is now being moved with their family and wondering what 
their future is, and has already been tried in the court of 
public opinion. And in the end, it is unsubstantiated. But them 
holding on, wondering what their fate is for long periods of 
time, not getting an ability to defend themselves until it is 
all over. It may make you feel better that it is 
unsubstantiated at the end, but the process that they went 
through is not a positive one. And that is one I think that 
really we need to shine a greater light on in order to protect 
those that are accused who in the end are innocent.
    Is there any sort of way that they can be publicly 
exonerated? I know I missed the first round, but I got--Okay. 
All right. Thank you. I will wind up and come back again----
    Mr. Coffman. Without objection----
    Ms. McSally. If you don't mind. I won't be long.
    Is there a way for them to be publicly exonerated for 
something that they didn't commit when this is all over, to at 
least clear people's names?
    Mr. Fine. One thing we do is we consider our reports for 
proactive release. If they are substantiated and involve a 
high-level official, we do not wait for a FOIA request years 
later, but we release it. At the same time, if it has already 
received public attention, if somebody is out there as having 
been accused of something, we will consider that for proactive 
release as well, just so that the result of that investigation 
can be----
    Ms. McSally. Well, there is a difference between being in 
the media and having an entire unit and everybody that has ever 
served with somebody hearing all the rumors and innuendoes and 
what is going on as far as the investigation goes.
    So is there not a way that we can--when somebody is 
cleared, that you can, regardless of whether it has been in the 
public eye, say, ``This person is exonerated,'' or if they 
request that? Maybe some people don't want that, but----
    General Quantock. Well, I think, as long as the person 
agrees, they can go to the public affairs officer and have 
the--say, ``Hey, it was not substantiated.'' But a lot of 
folks, people don't realize what is going on unless they have 
been substantiated. Here is, at least in my view, I have seen 
this for 6\1/2\ years. How these things get into the press and 
how they get in there--I mean, I am not big into public release 
and public shaming; that is just not what I am into.
    However, what I believe in is that, every 6 months, we have 
two folks that FOIA, ``Give me all the substantiations for all 
general officers,'' and we do. We give them a spreadsheet; 
``Here is all the substantiations for all general officers.'' 
And then they pick the salacious ones, and then that makes the 
next headline, the next newspaper. That is how this works. So 
they all get out there. All the salacious ones get out there.
    Ms. McSally. Yeah, I am talking about the unsubstantiated 
ones.
    General Quantock. I know exactly what you are talking 
about. I am just saying that most people, if they are not 
substantiated, don't want it out there because they are under 
investigation, because most people don't know.
    Ms. McSally. I hear you.
    Can you talk about the process of what investigations are 
done by the services and which investigations are done by the 
DOD IG, really briefly? I see in your testimony it says 
normally three- and four-stars are at DOD IG level or something 
that is of such a high level of attention.
    But is there other determinations on that? And if the 
services actually close an investigation and unsubstantiate it, 
do we have cases where the DOD IG decides to open it up again 
or take it on after the fact?
    Mr. Fine. So, on the front end, we do the three-star and 
four-star, the SES employees, Presidential appointees, 
intelligence-type investigations. And if there is a conflict or 
some reason why the service IG shouldn't do it or can't do it, 
we will do those as well. Otherwise, they do the investigation. 
When it is completed, they provide it to us for oversight. If 
we think it is thorough and has done all the investigative work 
that needs to be done, we approve it. If we don't, we can send 
it back to them for additional work.
    Ms. McSally. So is there ever cases where you then take on 
an investigation yourself after they have closed it?
    Mr. Fine. There has been occasion, yeah.
    Ms. McSally. Okay.
    Mr. Fine. Yeah, for good reason. Very rarely.
    Ms. McSally. Okay.
    Mr. Fine. For additional information or for some specific 
reason, but it has happened.
    Ms. McSally. Thanks, I yield back.
    Mr. Coffman. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    I just want to make something really clear from my 
perspective. I think we do have a problem with different spanks 
for different ranks. As I understand it, there have been 70,000 
court-martials in the Air Force, for instance, and not 1 
general officer has ever been court-martialed.
    When some of my colleagues were talking about the UCMJ and 
how if--what the UCMJ does is provide for accountability where 
there wouldn't be--where this isn't criminal conduct. There are 
cases that have just been brought to my attention. For 
instance, Lieutenant General Ron Lewis, who misused government 
credit cards at two strip clubs, falsely claimed his credit 
cards had been stolen, fraudulently stole over a thousand 
dollars from a credit card company, violated an order by going 
to a restricted area, and had an inappropriate relationship, he 
didn't get prosecuted under the UCMJ. He didn't have a court-
martial. A junior enlisted would get prosecuted for that 
offense.
    General Kip Ward, misuse of government resources for his 
personal gain, and his family was ordered to pay back $82,000. 
That is theft. And under normal circumstances, that would be 
subject to a court-martial. So, as we look at this issue, I 
think one of the things that I would like to see, Mr. Chairman, 
is that we take the time to make sure that everyone is being 
treated fairly in the military.
    I would really appreciate having from each of the services 
the number of court-martials, how many for enlisted, how many 
for officers, so we can just take a look at that as well.
    [The information referred to can be found in the Appendix 
on page 137.]
    And let me also point out to you that yesterday we passed a 
very strong sexual harassment bill in the House. There have 
been a number of Members who have resigned or are retiring as a 
result of sexual harassment, not sexual assault, here. And I 
think that, as we look at the military, we are going to expect 
the same level of responsibility for conduct that we are now 
expecting of Members of Congress.
    I yield back. Thank you.
    Mr. Coffman. We will now take a brief recess in order to 
set the witness table for the second panel. We will take a 5-
minute recess.
    [Recess.]
    Mr. Coffman. I wish now to welcome our esteemed second 
panel. We would like to respectfully remind the second panel to 
summarize, to the greatest extent possible, the high points of 
your written testimony in 5 minutes or less. Your written 
comments and statements will be made part of the record.
    Our second panel consists of General James C. McConville, 
Vice Chief of Staff of the Army; Admiral Bill Moran, Vice Chief 
of Naval Operations; General Stephen W. Wilson, Vice Chief of 
Staff of the Air Force; General Glenn M. Walters, Assistant 
Commandant of the Marine Corps.
    With that, General McConville, you may now make your 
opening statement.

STATEMENT OF GEN JAMES C. McCONVILLE, USA, VICE CHIEF OF STAFF 
                OF THE ARMY, UNITED STATES ARMY

    General McConville. Thank you, sir.
    Chairman Coffman and Ranking Member Speier, distinguished 
members of the subcommittee, good morning. Thank you for the 
opportunity to testify today.
    The United States military is one of the most trusted 
institutions in the country, and we value that bond of trust, 
and we recognize that every single day we need to wake up and 
earn that trust. While senior misconduct in the Army is down 51 
percent, we know that one act of misconduct breaks that trust 
of the America people.
    Senior misconduct in the United States Army has no place. 
Our senior officers are developed through decades of formal and 
informal training on ethics, Army values, leadership, and 
character. And we provide additional training for those leaders 
who have been selected to serve as general officers. The vast 
majority of our senior officers uphold our demanding moral and 
ethical standards just as we, their soldiers, and the American 
people expect them to.
    We are not a perfect institution, but we strive to be one. 
Senior officers who fail to meet the Army standards are held 
accountable. I, along with the other Army leaders, am committed 
to upholding the standards of our profession and ensuring all 
our senior officers do the same.
    I appreciate your time and attention this morning, and I 
look forward to your questions.
    [The prepared statement of General McConville can be found 
in the Appendix on page 107.]

  STATEMENT OF ADM WILLIAM F. MORAN, USN, VICE CHIEF OF NAVAL 
                 OPERATIONS, UNITED STATES NAVY

    Admiral Moran. Mr. Chairman, Ranking Member Speier, thank 
you for the opportunity to be here to speak to the subcommittee 
members, the American public, but most importantly this 
morning, to talk to our sailors.
    The foundation of our joint forces--this is going to sound 
like a broken record and just demonstrates how much we believe 
in the values of our institution. The foundation of the joint 
force is trust. When senior leaders fail, trust at the 
institution level is put at risk, which can have a profound 
impact on every aspect of developing and employing this force.
    So we all take this topic extremely seriously. And while we 
all seem to be trending in the right direction, as Jim just 
articulated, every single one of these matters. At the end of 
the day, we are an institution comprised of human beings who 
are indeed fallible. So, to get after this, we have taken 
deliberate steps to train and develop our enlisted and officer 
corps throughout their careers, to preclude moral and ethical 
failures. And when they do fail, we address them in ways to 
preserve the larger trust in the institution.
    Being transparent and accountable is part of this effort. 
Our goal is, by the time senior leaders are produced, they have 
a solid foundation formed through years of experience where the 
principles of ethical behavior and moral decision making and 
proper professional conduct are not only taught but reinforced 
and tested.
    As you have heard from our inspector general, we not only 
routinely track the data, we look for trends. When we see 
evidence, we explore and derive lessons learned to be better 
leaders. And while we have ethical guidelines and even rules to 
limit the consequences of poor decision making, the rules alone 
are not what you and the American public expect from us. You 
expect us to live up to higher standards of professional 
behavior.
    Transparency along these lines is central to our efforts to 
strengthen trust within our ranks, within the institution, with 
the American public, and I believe it strengthens our 
relationship with Congress.
    So thank you for the opportunity to be transparent today, 
to speak candidly and directly about this critical topic, 
because it is the foundation of our profession. Thank you very 
much.
    [The prepared statement of Admiral Moran can be found in 
the Appendix on page 113.]

 STATEMENT OF GEN STEPHEN W. WILSON, USAF, VICE CHIEF OF STAFF 
           OF THE AIR FORCE, UNITED STATES AIR FORCE

    General Wilson. Chairman Coffman, Ranking Member Speier, 
distinguished members of the subcommittee, thank you for 
inviting me to testify before you today. On behalf of our 
Secretary of the Air Force and our chief of staff and the 
670,000 total force airmen around the globe, it is an honor to 
be here. It is honor to be here with my vice chiefs.
    Late last summer, on the eve of our 70th birthday as a 
Nation--a service, I had the privilege to stand a few miles 
from here on the turf of the Nationals Ballpark. Forty-six of 
America's sons and daughters were in front of me, the backdrop 
of the Capitol behind them. They were about to enter the United 
States Air Force.
    In that moment, I thought about what we owe those patriotic 
volunteers in return for their selfless service and their 
selflessness. The word that came to mind was trust. I think all 
of us, all of us vice chiefs, view maintaining trust and 
confidence with the American people and with our force as the 
essential element of our past and future mission success. It is 
for that reason that we employ a deliberate and career-long 
continuum of learning, not only in operations and leadership, 
but in law and ethical standards for all airmen and certainly 
for our senior officers.
    Despite those efforts, at times, senior officers do break 
bonds of trust by faltering in judgment and/or character. And 
in those instances, we leverage a robust system of 
investigation and accountability. Complaints are investigated 
by independent teams of professionals. Disposition is done with 
objectivity, steeped in process and law.
    I know I can speak for my fellow chiefs here: Even one case 
of senior officer misconduct is too many. Our goal is for all 
airmen to do what is right at all times, regardless of the 
circumstances, and no matter the rank or the position. If they 
fall short of that goal, we will hold them accountable for 
their actions.
    Thank you for your continued leadership and your 
partnership as we seek to achieve that goal and, by extension, 
maintain the trust of all airmen and the American people. I 
look forward to your questions.
    [The prepared statement of General Wilson can be found in 
the Appendix on page 118.]

 STATEMENT OF GEN GLENN M. WALTERS, USMC, ASSISTANT COMMANDANT 
        OF THE MARINE CORPS, UNITED STATES MARINE CORPS

    General Walters. Chairman Coffman, Ranking Member Speier, 
and distinguished members of the House Armed Services 
subcommittee, thank you for the opportunity to appear here 
today and report to you on this very important issue, the moral 
and ethical conduct of our Marine general officers.
    We know that our Nation's citizens expect the very best 
from their Marines. They expect operational excellence. They 
trust that their Marines are women and men of the highest 
character, both on the battlefield and in every aspect of their 
lives. We Marines expect the same from ourselves. We readily 
accept this responsibility.
    Our core values of honor, courage, and commitment guide our 
moral and ethical conduct of every Marine. All Marines are 
custodians of these core values. Our senior leaders set the 
example for every Marine to emulate. They understand this 
responsibility, and they spend their lives upholding these 
values. They understand that winning our Nation's battles 
requires a foundation of character within every Marine, and it 
starts with them.
    Marines learn these sacred values early and often. We 
believe that through our continuum of training throughout an 
officer's career and oversight and education provided by our 
inspection programs, we build ethical decision makers. At every 
level of officer training and education, we continually and 
consistently emphasize ethical leadership as the foundation of 
leading Marines.
    Over the last 10 years, the Marines have averaged one and a 
half cases per year of substantiated general officer 
misconduct. In nearly half of these cases, the mistakes have 
been administrative in nature. While we take pride in the moral 
conduct of our generals, we acknowledge that there is always 
room to improve. Like every improving and learning 
organization, we remain proactive to evolving our education and 
training and programs to ensure the disciplined moral conduct 
of every Marine, especially our general officers.
    On behalf of our Commandant, General Robert Neller, we 
thank the Congress and this subcommittee for the opportunity to 
discuss this important issue. We appreciate your continued 
support to ensure the joint force remains the very best 
military our Nation requires and expects. And I look forward to 
your questions.
    [The prepared statement of General Walters can be found in 
the Appendix on page 125.]
    Mr. Coffman. Let me ask this question, and I would 
appreciate an answer from the Army, Navy, then the Air Force, 
and then the Marine Corps. Many of us are familiar with the 
consequences of a court-martial, a conviction. But less 
familiar with some of the other administrative and nonjudicial 
actions that can be taken against service members.
    Could you explain the other options available to you when 
disposing of senior leader misconduct cases and the 
consequences thereof?
    General McConville.
    General McConville. Yes, sir, I could. You know, what is at 
our disposal if we don't go to a court-martial is we could do a 
memorandum of concern, a memorandum of reprimand, but what 
really hurts an officer is a general officer memorandum of 
reprimand that we put in their official file. And that goes in 
their official file. It basically ends their career as they go 
forward. And as they go to retire, that is seen by the board 
that adjudicates what rank they will retire at. So, basically, 
you could lose one, two, three stars, depending on what rank 
you retire at, which is hundreds of thousands of dollars, for 
some type of misconduct at that level.
    Admiral Moran. Yes, sir. I was going to mention the 
retirement grade determination process that all of us go 
through, for any flag officer, senior leader, who has had a 
substantiated allegation, that what we term becomes adverse 
information to their record. We must do a board, and we all do 
that, we carry out that process. A retirement grade 
determination for one- and two-stars is ultimately signed off 
by senior leaders in the Navy. All of our services with the 
Secretary level. And for a three- or four-star retirement, 
grade determination must be approved by the Secretary of 
Defense.
    Mr. Coffman. Let me fully understand this. So that--you 
give some sort of a letter of admonition or whatever that is 
there. So it is a career killer. So that person is not going to 
get promoted. They may be able to finish out their tour of duty 
or--at some level, I suppose, be able to finish their career. 
So then they go to retirement, and then they are reviewed by a 
board to determine whether or not they are going to be reduced 
in rank in retirement? Am I clear on that?
    Admiral Moran. If it's adverse information, yes, sir. I 
would add--I won't speak for the rest of the services here--but 
for the Navy, if a senior officer is found with substantiated 
allegations that are serious, they are not asked--they will not 
stay for the rest of their tour. They are often relieved of 
their command, relieved of their duties, and asked to retire, 
and then we go through the retirement grade determination.
    Mr. Coffman. So somebody that you were going to allow to 
finish their--it was a letter of admonition. It is a career 
killer, but you are going to let them finish their tour of 
duty.
    Admiral Moran. Not necessarily. If it is serious enough for 
a letter of admonition, they are not going to continue.
    Mr. Coffman. Okay.
    General Wilson.
    General Wilson. We have the same process. Ours would be 
letter of reprimand, or an Article 15 type of instance, and the 
same things apply. We would determine whether or not they 
should still serve in that job. In most cases, for a senior 
officer, if they have an Article 15 or letter of reprimand, 
then are going to be removed from that job immediately, and 
they will go through an officer grade determination to follow.
    Mr. Coffman. So, effectively, if somebody got a letter of 
admonition, forced to retire, reduced in rank in that 
retirement, it is literally the equivalent of a fine of 
hundreds of thousands of dollars, am I correct?
    General Wilson. That is correct.
    Mr. Coffman. General Walters.
    General Walters. Sir, we follow the same process. The one 
example I could give you, albeit is 10 years old, we had a 
selected two-star. He had a substantiated finding on him. He 
was retired as an O-6.
    Mr. Coffman. Wow.
    General Walters. So he didn't get a second star. He retired 
as an O-6. I actually did the calculation last night, and if 
you compare his O-6 retirement to an O-8 retirement, what he 
really lost in compensation over a 30-year retirement is $1.9 
million.
    Mr. Coffman. Okay.
    Ms. Speier.
    Ms. Speier. Thank you all for your presentations, for your 
conversations yesterday.
    I guess this question could be asked of you as well. Could 
you inform us by letter of how many court-martials there have 
been of general officers? The chairman just talked about, you 
know, the potential loss of rank and loss of hundreds of 
thousands of dollars over one's lifetime in retirement, 
although they still keep their retirement.
    I am more interested in the value of a security clearance 
because that is worth a lot of money--a whole lot more money 
than $200,000, frankly. And in some cases, these cases that 
have come before us where they have lied and done things that 
would question their moral turpitude, drunkenness, under normal 
circumstances, someone could in fact lose their security 
clearance. But I wonder how many do lose their security 
clearance.
    Does anyone have any thoughts on that? And if you don't, if 
you could also provide that to us for the record. Of these 
cases that--we have seen so much prominence, and we can provide 
them to you if you don't know them off the top of your head--I 
would be curious to know how many actually lose their security 
clearance because that is more valuable, I think, than many 
other things.
    [The information referred to can be found in the Appendix 
on page 138.]
    Ms. Speier. Admiral, you talked about transparency in your 
opening remarks, and I think that that is really important from 
the congressional oversight perspective. The DOD IG does 
disclose substantiated cases, but to my knowledge, there isn't 
any means by which each of your services would disclose to 
Congress, for instance, substantiated cases. Could each of you 
inform us as to whether or not you would be supportive of that?
    General McConville. As far as the Army, if this committee 
wants those cases, absolutely.
    Ms. Speier. Thank you.
    Admiral Moran. Yes, ma'am.
    General Wilson. Yes, ma'am.
    General Walters. No problem, ma'am.
    Ms. Speier. All right. Thank you.
    Admiral, the Fat Leonard case has come up a number of 
times, and it is probably the most egregious case in the 
history, certainly of the Navy, if not the military in general. 
Because so many people were involved and so many people 
corrupted by this individual, I am stunned that there weren't 
any bystanders that spoke up.
    First question, how did it actually--there were a number of 
cases that were investigated by NCIS [Naval Criminal 
Investigative Service] because there was bid rigging or 
overcharging for fuel or the like that he was engaged in, but 
many of those cases were dismissed. Have you done kind of a 
postmortem on that to look at where the holes were within the 
chain of command in terms of identifying the issues and 
addressing them?
    Admiral Moran. Ma'am, I hope you will respect this comment. 
It is an ongoing Federal investigation by the Department of 
Justice and the U.S. Attorney. I am very uncomfortable 
answering questions that could prejudice the case in any way, 
and so answering some of that--what you just asked--could 
potentially cause us problems. And when it is done, and we are 
hopefully getting to the very end of this now, when it is done 
and all the files are turned over to us, we will do that. And 
there is a process in place to make sure that we evaluate every 
single case that comes to the Navy. Whether they are handled by 
the Department of Justice or not, they come to us for final 
resolution, and we cannot talk publicly about that until the 
Department of Justice is complete with their investigation.
    Ms. Speier. No, I appreciate that. And I am not asking you 
to do that, but from a policy standpoint, are there any new 
policies that you recognize would be helpful in preventing 
cases like this from, you know, exploding into scandals that 
are of proportions that it is hard to even comprehend?
    Admiral Moran. Most of the issues revolve around the 
contracting for services in overseas ports, so we have taken a 
very strong turn on the process by which we do that. We put 
layers of oversight into how those contracts are issued and who 
is issuing them. And that sort of training in our supply corps 
and in our general support corps has been very strong over the 
last 5 years, and we think that largely has helped us drive 
down the number of misconduct cases that have resulted outside 
the scope of the GDMA case.
    Ms. Speier. One last question. Bystanders, do you think 
bystanders have a duty to report? Question for each of you.
    General McConville. Absolutely.
    Admiral Moran. In every single case. We talk a lot about 
this in sexual harassment training, sexual assault, but all 
what we would call behaviors that are destructive in nature. 
Oftentimes, it can be quelled by a bystander, and we try to 
teach that value to everyone.
    General Wilson. Completely agree.
    General Walters. Yes, ma'am, we teach, see something, say 
something.
    Ms. Speier. Okay. Thank you.
    Mr. Coffman. Mr. Bacon, you are now recognized for 5 
minutes.
    Mr. Bacon. Thank you very much.
    I appreciate all of you being here and your leadership. I 
would like to just go back to a question I asked from the 
previous panel about the different spanks for different ranks. 
Do you think we are holding people equally accountable, in your 
view, whether it is a midlevel, senior NCO [noncommissioned 
officer] to a senior officer? Thank you.
    General McConville. I do. My previous--I was commanding 
general of the 101st Airborne Division for 3 years, had general 
court-martial authority, handled a lot of the cases at the 
lower level, and now as the Vice Chief of Staff of the Army for 
the last 7\1/2\ months. I believe we hold everyone 
appropriately accountable, and when we look at senior officers, 
we expect a higher standard from them, and when they don't meet 
the standards, we hold them accountable.
    Mr. Bacon. Thank you.
    Admiral Moran.
    Admiral Moran. Yes, sir. Both Jim and I served as prior 
``1s,'' which are personnel commands, and in every disciplinary 
case, every single one that reaches the level of where we are 
trying to determine if someone should be retired early or 
retired without pay or so on and so forth or released from 
Active Duty, we see every one of those packages, and as vice 
chiefs we see them again.
    And so I think we get to see, across the board, a pretty 
balanced view of senior and junior cases. And I think we all 
also believe that if we do not do this in a fair way, we are 
going to be held accountable by our sailors, soldiers, airmen, 
and Marines, so I think we are very conscious of doing this in 
a correct way.
    Mr. Bacon. Thank you, Admiral.
    General Wilson.
    General Wilson. Congressman Bacon, I completely agree with 
my counterparts here that we hold all of our airmen to one 
standard. And I would also add, though, that we hold our senior 
officers to an exceptionally high standard, that we know that 
we will be judged by that. And so in my time as the vice chief, 
I have seen that we are not going to walk by any problem, that 
we are going to hold any senior officer who does any misconduct 
accountable for that. We are going to investigate it, then hold 
them accountable.
    Mr. Bacon. Thank you.
    General Walters.
    General Walters. Yes, sir. I agree with all my counterparts 
here. I will just add one thing, is to remember that our senior 
officers, one shot and you are adjudicated, one shot and you 
are down, perhaps, whereas on some of the junior ranks, we try 
to give them a second chance. Not--it is not a zero defect 
mentality. I would say it is almost a zero defect mentality the 
higher up you go.
    Mr. Bacon. I know I appreciated second chances when I was 
18 and 19.
    General Walters. Yes, sir. Me too.
    Mr. Bacon. I want to just sort of pose a rough hypothetical 
and whoever wants to speak up on it. I think part of the issue 
is if you have someone who has served honorably for 30 years, 
say they are a one- or two-star at that point, and you are 31 
and 32 as a three-star, maybe involved in an unprofessional 
relationship or whatever it may be, and then you have to 
determine at retirement, do you go back to the two-star or one-
star, versus someone, say, at the 8-year point and they do 
something similar, how hard is that, from your perspective, to 
determine is going back rank to the 30-year point or should it 
even be more serious, depending on the crime or action taken? 
How hard is that when you are making these determinations, I 
guess?
    Because my point being is sometimes you go back to the last 
rank honorably served, but yet if it is a junior enlisted or 
something that maybe they suffer a career-ending decision 
there. So I just--I would just be curious for your insights.
    General Walters. Perhaps I could illuminate a little bit, 
sir. The grade determination is a process that is in place for 
all of us, but the reminder is if--I don't care if it is a 
junior Marine or a senior Marine, if the action is criminal, 
then there is no rank involved. I can name that one in the last 
5 years where it was a senior officer, an O-6, and he is zero.
    Mr. Bacon. And he would retire with no rank?
    General Walters. He gets no retirement, he is in jail, and 
he is zero. He has got no rank at all.
    Mr. Bacon. Any other comments?
    General McConville. I will follow along with the comments. 
I agree. It is a difference. We have had two court-martials, 
and one I won't talk about right now, but that have been 
adjudicated over the last 10 years, and both officers were of 
criminal-type nature, and we will court-martial them if they 
warrant that. But when it looks at--you know, we weigh every 
single case on its merits. We look at what the soldier or the 
officer has done over the many years, and we weigh all that, 
and we put it together, and we try to do the right thing when 
it comes to making a decision on their future.
    Mr. Bacon. Thank you. Mr. Chairman, I yield back.
    Mr. Coffman. Ms. McSally, you are now recognized for 5 
minutes.
    Ms. McSally. Thank you, Mr. Chairman.
    I want to follow up on my previous line of questioning. How 
long are unsubstantiated reports kept in each of your services? 
Do you know?
    Admiral Moran. Maybe I will start. Are we talking just 
senior officers, ma'am?
    Ms. McSally. Yes.
    Admiral Moran. Yeah. So we have other terms when we talk 
about investigations where they are substantiations and then 
there are unsubstantiated but reportable information. 
Reportable meaning that it wasn't adverse, but it is still 
required by the Senate for confirmation. So it is a little bit 
different from----
    Ms. McSally. Okay. And what is an example of something that 
is unsubstantiated but reportable?
    Admiral Moran. Well, let's say they were--someone was 
accused of something. Boy, so many of these are fresh in my 
mind from a topic I am not at liberty to talk about. But if it 
was you were alleged to have gone to a dinner with a contractor 
and accepted that dinner, and it was unsubstantiated that it 
was accepted by you but it was alleged to be that you had--you 
did attend a dinner with a contractor, that can be reportable, 
but not----
    Ms. McSally. So there are people that are going through an 
entire investigative process, they are cleared, but yet in a 
nomination, even though they are cleared, it is reportable to 
the Senate for confirmation?
    Admiral Moran. The Senate is----
    Ms. McSally. The allegation?
    Admiral Moran. The Senate is entitled to any information on 
an officer being considered for promotion to the rank of O-7 
and above.
    Ms. McSally. Okay. That was kind of my line of questioning 
in the last session, but it seemed like all the panelists said 
that unsubstantiated claims are never taken into account for 
jobs or rank. And so now I am hearing that they are, 
unsubstantiated claims are taken into account.
    Admiral Moran. They have to be accounted for. That doesn't 
mean that will prevent them from being promoted. It just means 
we have to----
    Ms. McSally. So within the services--I don't know if each 
of you can answer--is there anywhere informally or formally in 
your process of considering someone for a new job or rank where 
you actually look at unsubstantiated investigations as part of 
that process?
    General McConville. Well, one of the things that we look at 
is titling. When we look at vetting an officer, we look at all 
the databases that come up to see where that--and I will give 
you an example. And, you know, this did not hold up the 
officer, but the officer was titled because his dog got loose 
in the neighborhoods. The MPs [military police] came by. They 
titled him for having a loose dog in the neighborhood, and he 
was, you know--actually, he was, you know, substantiated for 
having the dog loose in the neighborhood. So----
    Ms. McSally. I am talking about where people are cleared 
and are they somehow in any informal or formal process, are 
people looking at the files of their cleared allegations and 
cleared investigation as to whether they are going to offer 
them for a new job or promotion? Do you see what I am trying to 
get to the core of here?
    General Wilson. We don't do that.
    Ms. McSally. Okay. Thanks, General Wilson.
    General Walters.
    General Walters. No, I mean, we are required to report all 
the information in a confirmation to the Senate.
    Ms. McSally. So all information includes unsubstantiated 
claims?
    General Walters. You have to report whether they were 
investigated in some cases, and these are the rules that are 
set. We don't have a big stack of all the--in my office of all 
the unsubstantiated. I don't have any of those. That is really 
the legal review, and they know what parameters that the Senate 
requires that goes in with a confirmation package. I sign off 
on those. And it is usually a paragraph at the bottom that says 
something along the lines of we looked at OGD-278, we have 
looked at this, and no substantiations, but there was an entry 
in here, and that is all it will be. And then it will be up to 
the Senate to say tell me more, if they are interested.
    Admiral Moran. Congresswoman, you will remember a 
nonpunitive letter in your days where that is between the 
commander and the individual, not to be for anyone else.
    Ms. McSally. Yes.
    Admiral Moran. That is required--a nonpunitive letter for a 
flag officer or a nominee for flag is required by the Senate to 
be reported.
    Ms. McSally. Okay. But are you saying it is the current 
law, like we have in the law, like that if--I am talking about 
IG investigations that are closed and somebody has been 
exonerated, that still the--even though they are innocent, just 
because they were accused, that has to be reported to the 
Senate?
    Admiral Moran. No, ma'am, that is not what I am saying. I 
am saying that if something was issued to an officer that is up 
for promotion to flag, unlike for the rest of the service, 
anyone else with a nonpunitive, that is no one else's business. 
Those are still required to be brought forward.
    Ms. McSally. Okay. So it still goes back to my question is, 
is there anywhere in the process within the services that--I 
know we have heard from General Wilson--that unsubstantiated 
investigations are looked at formally or informally by the 
services whether you are considering somebody for a new job or 
promotion?
    Admiral Moran. In a promotion boards, if it is not adverse 
information, it is not examined during the promotion board.
    Ms. McSally. I am not talking about a promotion board. I am 
talking about as you all sit around talking about who is going 
to be put into this next job or considered for the next star--
--
    General Walters. Generally speaking, is we are looking at a 
slate is I guess what you are talking about, is we do a slate. 
We do slates continuing through the year because things change 
and demand signals on people change. I can't remember anybody--
well, it is only two of us, the Commandant and I, saying, well, 
there is an unsubstantiated claim. That never comes up.
    Ms. McSally. Okay. I am over my time.
    General Walters. Substantiated, sure.
    Ms. McSally. I don't know if you guys get what I am trying 
to get at, but accused doesn't mean guilty, and I just want to 
make sure that that is being taken into consideration.
    Mr. Coffman. Dr. Wenstrup, you are now recognized for 5 
minutes.
    Dr. Wenstrup. Thank you. I have a question, something that 
I think I am seeing a rise in, and it is not at the same level 
of some of the cases we have been talking about today. But you 
have, not general officers, but officers that have the 
responsibility of making sure that their troops are doing the 
things they are supposed to do. And I have become aware of a 
couple cases where the lower ranking person, either officer or 
enlisted, wants to resist that, and all the leader is doing is 
saying, listen, you have got to be in line, you have got to get 
your job done. Then they go, the person not doing their job, go 
and accuse some kind of bias, that this leader has some kind of 
bias. And what I am seeing is these leaders, then, they are now 
the accused of something just because they were trying to make 
sure someone did their job. They make this claim that some kind 
of bias, and now that leader is tied up in knots distracted 
from doing the job they are supposed to do every day because 
they have to defend themselves, and we are losing good people, 
because they get to the point where it is like I want out. I 
don't need this harassment when all I am trying to do is do 
what is right. And you are all shaking your heads like I am 
familiar with this type of antics taking place.
    How do we--I am not saying that there can't be leaders that 
are out of line. Don't get me wrong. But how do we defend the 
people that are getting tied up in knots and kept from doing 
their job in leadership because somebody who is not doing their 
job decides they are going to take that route? And are you 
seeing a rise in this type of----
    General McConville. Well, I think I can speak for our 
service is very concerned about those type issues. We want 
commanders not to be looking over their shoulders when they are 
making decisions. On the other hand, we want to make sure that, 
you know, our soldiers have access, you know, if they see 
something wrong, to come forward, and it really becomes trying 
to find that sweet spot in between. And we have to watch that 
as we go forward. And you heard IG talk about that kind of 
concern about how maybe some people are taking advantage, and 
we just have to watch that, and we have to come back.
    And there are things we can do when we look at some of the 
cases. Some of them may be triage upfront. We take a look at 
it. We--you know, and there is risk in that because the best 
thing to do is do a 4- or 500-day investigation, you will be 
absolutely sure that you have no issues probably at the end.
    On the other hand, you may hold up someone at retirement or 
something like that, and I am not sure that is fair either. So 
we are trying to find the best way to make this fair for both 
involved.
    Dr. Wenstrup. I would like to see some focus on speeding up 
that process, because I am seeing some good people get dragged 
through the mud for absolutely no good reason whatsoever just 
because you told someone they need to get their OER [officer 
evaluation report] done. I mean, that is a little bit 
ridiculous, and then they start saying you are picking on me. 
So, obviously, I am speaking from a real experience, and I 
would love to hear from more of you.
    General Walters. Sir, I think what we are talking--we have 
a process, and we want whistleblowers to have the option to 
come forward and tell us when wrong things are being done. But 
that process right now, the reprisal process is broad ranging. 
We have a thing called request mast. Administrative errors, any 
young Marine can go all the way up the chain of command to get 
whatever he believes or she believes is an error corrected. But 
what I think we are seeing a trend instead of using that 
request mast is they have got to go talk to the commander, then 
the commander's commander, and up the chain. Instead of doing 
that, they just pick up the phone and make a complaint on a 
hotline for an administrative error. They didn't get the award 
they think, they did not think their fitness report was 
accurate, or they did not get the leave they wanted, or they 
got declined on leave.
    So these are administrative in nature, and we have the 
request mast process to adjudicate those and accommodate those 
and allows leaders to fix things when they are broken. As soon 
as they pick up the phone for those kinds of issues, it goes 
into a different process, which as you pointed out, can take 
too long.
    Dr. Wenstrup. By the way, it is not me involved with one of 
those. I was an outside observer.
    Go ahead.
    General Wilson. I really think we are a little bit out of 
balance on the whistleblower reprisal piece. About 96 percent 
of the cases are not substantiated, so it would tell you that 
we are spending a lot of time and yet it is not in balance. And 
to your point, that has a chilling effect, not only on the 
commanders, but on the force when they can't--when you were 
trying to execute good order and discipline and you feel this 
cloud above you.
    And we completely agree that if somebody is going to be 
investigated, it should be done in a timely manner. If they are 
found guilty, then let's move on with that. If not, they should 
be also on the innocent side remove that quickly. It is taking 
way too long.
    Dr. Wenstrup. Thank you.
    Admiral Moran. I agree. Timeliness is the issue here, to 
your point, sir. And when we can get better at that, I think it 
will help resolve a lot of this. But we are spending the same 
amount of time on very few cases that are ultimately 
substantiated.
    Dr. Wenstrup. Thank you. I yield back.
    Mr. Coffman. Mr. Russell, you are now recognized for 5 
minutes.
    Mr. Russell. Thank you, Mr. Chairman, and thank each of you 
for being here today.
    I guess a lot of the statistics that we see amalgamated 
together include military misconduct, what would be clearly 
viewed as potential misconduct, but may not be translatable in 
the civilian world. But it also includes a wide array of tools 
that are used to address that misconduct, and all of that gets 
rolled up into this statistical analysis.
    And so I guess my question would be, what percent of the 
cases that we see--and some of the statistics I have looked at 
it is like, okay, so maybe 10 percent of the cases warrant 
further investigation, so 90 percent kind of thrown out. Of the 
10 percent that are there, roughly 30 percent of those end up 
being substantiated. And those are rough figures but, you know, 
seems to be some consistency there. So we are still talking 
small percentages. But even among that portion, not all of 
those are for like the big headline cases that we see. A lot of 
them could be, you know, you moved a boat with your household 
goods when you shouldn't have or something.
    Would you speak to that? What percent of the cases would 
never translate into offenses in civilian employment?
    Admiral Moran. Well, I will start, I guess. It is really 
hard to say. Since I graduated from high school, I have had a 
uniform on, so I don't really know. I will try to get that 
answer for you and put it in writing, but I wish I could tell 
you. All I know is the standards we have----
    Mr. Russell. Well, I mean, there are some things, just like 
with a sailor, I mean, you know, he is swabbing the deck or a 
soldier buffing the floors or whatever over something that 
would never--they would never have anything entered in any 
record or file, there would never be any offense. And I know 
that also can apply to general officers on certain standards of 
conduct that the military expects and demands certainly of our 
senior leaders, but yet if they were in the corporate world, 
this would not be anything that would translate, and yet that 
is still part of the statistical body. And that is what I am 
trying to get at, whoever would like to address that.
    General McConville. You know, we have had things from 
officer evaluation reports being late because the commander was 
waiting on a discipline issue before he actually wrote the OER. 
So, technically, he was substantiated for late OER because he 
was just waiting for this thing to resolve. Of course, you 
know, it didn't ruin his career, but he did go through a 
process which delayed him, and it runs all the way to an 
inappropriate relationship.
    And even on the civilian side, if you had an inappropriate 
relationship, inappropriate consensual relationship, we hold 
people very accountable for those type things. If you went to a 
gentleman's club, you know, on the civilian, but we hold people 
very accountable for those type things, and I think we should 
have a high standard in the military.
    Mr. Russell. General Wilson.
    General Wilson. Over the last 5 years, we have had 77 
cases. As we looked at that, about 60 percent of them I am 
going to call an error in judgment in administrative 
procedures. About 25 percent of those involve personnel 
matters, and those that involve some type of sexual harassment 
or inappropriate relationship was under 15 percent.
    Mr. Russell. Thank you.
    General Walters.
    General Walters. Sir, I am looking at--so in the last 10 
years, we have had 15 in our general officers. I was looking at 
them, most of them are admin. They wouldn't be taken--held 
accountable out in the government. I had one TAD [temporary 
additional duty] where he got extra money on his TD [temporary 
duty] claim. I guess that is theft, and that could be 
chargeable out in the civilian world. We took care of it. I 
think it was 10 bucks. And we made him cut a check, and then we 
reprimanded him.
    Mr. Russell. And I appreciate that.
    And, Mr. Chairman, that is part of what I am just trying to 
establish is that a lot of the statistics, you know, are rolled 
into where it looks like a greater problem of misconduct.
    And then my final question for Admiral Moran would be, we 
have heard mentioned in both panels today the Fat Leonard case 
and some things like that, but when a case comes up like that 
that has translated over to the Justice Department, is the 
military limited in how it can even comment or even defend or 
maybe portray the other side of the story while it is in the 
Justice Department and outside of the Department of Defense?
    Admiral Moran. Yes, sir, we absolutely are. So I look 
forward to the day when I can come back to this committee and 
testify about what we have learned from that and about the 
things we have put in place to address it. And that is much 
where I was going with Congresswoman McSally's question. I am 
very focused on that right now, and it is hard to talk about 
it.
    And some of those cases where they go through a justice 
review and end up in a Navy review and are ultimately 
unsubstantiated after years of investigation are really tough 
to account for, but Congress now expects us, Senate expects us 
to address that, even though they were unsubstantiated, just so 
they know we have looked thoroughly at it. That was my point.
    Mr. Russell. And I think that is important to note, Mr. 
Chairman, because many times what might be the appearance of 
that they are trying to hide or harbor information, the reality 
is when it translates from Department of Defense over to 
Department of Justice, they are prohibited from providing 
perhaps very illuminating or alternative views, but yet they 
can't, and so I think that is very important to establish in 
the hearing today.
    And with that, I yield back. Thank you.
    Mr. Coffman. Ranking Member Speier.
    Ms. Speier. In conversations with one of you, I guess it 
was over someone being reprimanded for endorsement, it came up 
that general officers could have outside employment. And then 
we checked the UCMJ and found out there is no prohibition for 
general officers to have outside employment, which I think is 
pretty stunning. Would you approve of us passing an amendment 
that would prohibit outside employment?
    General McConville. I certainly would. I don't know what 
general officer has time to have outside employment. I would 
like to know who the person was.
    Ms. Speier. That is what I was saying.
    Admiral Moran. Yes, I want his job.
    General McConville. If he is in the Army, I will get a new 
job for him.
    Admiral Moran. Ma'am, we will go back and look at the 
statutes, but I want to believe that we are prohibited from 
outside employment. We are not prohibited from serving on 
certain organizations that are for the benefit of the military 
services or volunteer organizations as a board member or a 
contributor to that. But generally speaking, we have been 
prohibited for as long as I can remember.
    General Wilson. I agree with my colleagues.
    Ms. Speier. All right.
    General Walters. No, ma'am, I only experienced it once. I 
was invited to be a member of a board for a heroes flight, and 
my counsel said you can't. And it was gratis, so--I didn't have 
the time anyway.
    Ms. Speier. General Wilson, I am going to ask you just to 
write me a memo on this, but to have 70,000 court-martials in 
the Air Force and never once a court-martial of an officer 
suggests that maybe there is something to that, so I would just 
like you to write me a memo to give me some of your thoughts on 
that.
    The UCMJ also has a statute of limitations that in many 
cases is less than it would be in the civilian world. For 
instance, for bribery, UCMJ has a 5-year statute of 
limitations. In the general society, it can be 7 to 10 years. 
Would you look at the statute of limitations for, you know, 
various forms of conduct in the military and give us your 
recommendations as to which ones should be increased.
    [The information referred to can be found in the Appendix 
beginning on page 139.]
    Ms. Speier. And then, finally, General Walters, this was in 
the paper today, in case you haven't seen it.
    General Walters. Is that USA Today, ma'am?
    Ms. Speier. Yes. It is ``Marine Corps brushed off sex 
charges.'' And what is stunning about this particular case is 
that you have two women who have been sexually harassed by the 
same person, and nothing happened. And when the one survivor of 
the sexual harassment went to her superior, they said no one 
will believe you. And if you have heard anything from the 
Members of Congress over the last few months is we believe the 
women. So I hope that this becomes an anomaly as we continue to 
evolve in terms of the issue of sexual harassment. I think we 
have a huge problem. We have a huge problem in our academies, 
and I think we have a huge problem in our services. That isn't 
even getting to the issue of sexual assault. That is the issue 
of sexual harassment, and I think we have got to do something 
dramatic to shift the culture.
    And with that, Mr. Chairman, I yield back.
    Mr. Coffman. Ms. McSally, you are now recognized.
    Ms. McSally. Thank you.
    So as we have talked about in both panels, we have got 
probably an issue with reprisal whistleblower maybe being 
overly utilized and legitimate cases obviously need to be 
addressed and people need to be held accountable, but the 
system is being bogged down with a lot of other cases. And in 
some cases, as we all know, people, maybe it is their 
situational awareness is low and their perception of reality is 
such that they are reporting what they believe to be wrongdoing 
that you all unsubstantiate. But in some cases somebody may be 
fraudulently claiming wrongdoing of someone above them and you 
will investigate that.
    Again, assuming the person has been exonerated, has there 
ever been examples of going back and the accused, you know, 
being looked at for false claims or fraudulent claims or lying 
to investigators or anything like that in those cases?
    No examples of that at all?
    General Wilson. I am not aware of any.
    Ms. McSally. Is there a process even to take a look at 
that, that somewhere along the line----
    General Walters. I will put that under the heading of you 
don't want to put anything out there that will preclude someone 
from coming forward in the future. Good one.
    Ms. McSally. Totally agree. However, if somebody has 
brought together a false allegation----
    General Walters. If they truly believed in their 
allegation, although it proved to be false, I still don't 
think--and it turned out not to be true, I don't think there 
is----
    Ms. McSally. My bet would be that would be the vast 
majority of cases, but there may be a rare case within the 
process that you need to take a look at whether, you know--
their own conduct is the issue. Is there any sort of process 
there to even take a look at that, whether somebody lied or has 
a fraudulent claim or anything like that? Everybody deserves 
due process.
    Admiral Moran. I am told there is a process, but can we get 
back to you with a written response to that to give you more 
detail behind it?
    Ms. McSally. Sure. Great.
    [The information referred to can be found in the Appendix 
beginning on page 140.]
    Ms. McSally. And I don't know if you all can answer this 
versus the IGs on the first panel, but what sort of training do 
the investigators go through? And is there any sort of review 
to ensure that they don't take a prosecutorial mindset of, you 
know, rewarding getting some kills versus fact finding and just 
sort of oversight of the investigator selection and processes?
    Admiral Moran. I think that is another one we can get back 
to you on, Congresswoman, but there have been perceptions of 
that in the past, and I know that I have personally had 
discussions with the gent sitting behind me in our IG chair, 
and when we see that, he normally addresses it in his command, 
and I trust that he will take appropriate action if there is 
any evidence of that.
    Ms. McSally. Any other comments on that?
    General McConville. No, I agree. I think it is, you know, 
same thing with our IG. That is why we have a lot of checks and 
balances in the system, both in the legal side and the command 
side. At least from where we sit, it is not arbitrary; it is 
how these decisions are made, and that is why they take some 
time because they are reviewed at every single level to make 
sure we don't have things like that happening.
    Ms. McSally. Anyone else?
    General Wilson. I just think all the IGs would say that 
they spend a lot of time on making sure their investigators are 
trained right and trained appropriately. There are probably 
cases where that has happened, overzealous investigators, 
before, but I know all of us are emphasizing with our IGs the 
importance of the training in doing it right.
    Ms. McSally. General Walters.
    General Walters. Always have to be on the lookout for that, 
ma'am.
    Ms. McSally. Thanks.
    Would you all support--I mentioned on the first panel, if 
someone who is exonerated wanted there to be a public statement 
made that they were exonerated, would you support a process 
that you all did that, not them, but you all did that?
    General McConville. I would be glad to do it.
    Admiral Moran. Same.
    General Wilson. Yes, ma'am.
    Ms. McSally. Is that something----
    General Walters. No problem.
    Ms. McSally [continuing]. We have to do or is that 
something you could do within your own procedures, to allow 
that option if they want you to make a statement that they have 
been cleared?
    General Walters. Let's look at the procedures, ma'am. And 
my sense is, much like the IGs told you, that once it is over, 
most members who are exonerated just want it to be done. They 
don't want to bring it up again.
    Ms. McSally. But if somebody would want it to be publicly--
--
    General Walters. I don't see why we would not accommodate 
that.
    Ms. McSally. Can you all get back to me as to whether that 
is internal or whether that is something we need to do? Great. 
Thanks.
    I yield back.
    [The information referred to can be found in the Appendix 
on page 141.]
    Mr. Coffman. Mr. Russell, you are recognized for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    Just one comment on the outside employment. Unless 
something has changed, officers in all the services are 
prohibited from doing outside employment. The exception 
probably back to the time we have been wearing tricorn hats was 
they could write for publication and they could, if you had 
some particular person whose wartime memoirs or experiences 
were needing to be captured or published, you know, I think of 
people like General Marshall and others people wanted to know, 
and they were allowed to publish their memoirs or do things of 
that nature. I am not sure that, Mr. Chairman, a bill would be 
needed. I think all of that is currently in place, and then we 
also don't want to put prohibitions on our Guard and Reserve 
flag officers. My goodness, they wouldn't be able to eat and 
feed their families. If any of you care to comment on it, that 
is fine.
    But, General Walters, you did not have a chance to reply 
to, you know, we are accustomed in Congress to often getting 
headlines that we don't deserve or that maybe we do, but would 
you care to comment on the headline that was presented earlier?
    General Walters. No, sir. I mean, it was brought to our 
attention on Monday night. I know the reporter asked for some 
information. We couldn't turn the FOIA information, the 
redacted PII [personally identifiable information] fast enough 
for him before he published. We have our lawyers looking into 
it, and they are actually with the complainant right now 
working out the mitigation plan. So we are looking deep into 
it. I don't know all the facts yet, but I will find all the 
facts.
    Ms. Speier. Will the gentleman yield?
    Mr. Russell. Of course.
    Ms. Speier. This is a case that dates back to 2013 and 
2017?
    General Walters. Yes, ma'am. I think 2013 was in the 
actions--what I was briefed in last night, 2013 were the 
actions. The complaint came in and I think--I believe, I don't 
know, but I believe that mitigation was put in place, but the 
mitigation broke down, and now we have to go look at mitigation 
again.
    Ms. Speier. Well, there was a second--there was second 
woman who then came forward, so there is----
    General Walters. Right. And that one never reported, but 
now she has, so we have to look at it.
    One of the problems is getting people to report and having 
trust in the system. And we have seen the increase of 
reporting, and we have established, through the task force, I 
will take this opportunity to offer a full brief on all we have 
done since last year.
    Ms. Speier. I don't want to take the gentleman's time.
    Mr. Russell. And reclaiming the time, and I thank the 
gentlelady.
    And it is important we establish those trust and that we do 
those things. And I think, Mr. Chairman, you know, with your 
leadership, we have seen from our service academy 
superintendents and commandants that have come and provided us 
testimony that many times there is a very good process. And 
when, you know, mention was made on some of that, that there 
being a big problem, I would disagree. I think our hearings 
here have substantiated that, while there are issues that 
certainly must swiftly be dealt with, when compared to 
collegiate America, my goodness, you know, colleges would love 
to have the problems that our academies have in terms of 
virtually nil in statistics. That doesn't mean that things that 
happen there, they have to be swiftly dealt with to the fullest 
extent of the uniform code and also law and criminal cases, but 
I think that those hearings have been very, very helpful.
    And thank you for your response, General Walters, on that. 
And being a true conservative, I will even give back some time, 
Mr. Chairman.
    Mr. Coffman. I wish to thank all the witnesses for their 
testimony this morning. Senior leader misconduct is an 
extraordinarily important issue, and I want to thank the 
witnesses for their candor.
    There being no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            February 7, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 7, 2018

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            February 7, 2018

=======================================================================

      
      
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            February 7, 2018

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MS. SPEIER

    Mr. Fine. There are 76 civilian investigators and 1 military who 
conduct senior official and whistleblower reprisal investigations at 
the DOD OIG. Of the 76 civilian investigators, 63 have prior military 
experience.   [See page 27.]
    General Quantock. We are authorized 20 investigators for senior 
officials, 9 are Civilian and 11 are Military. This is investigators 
only, it does not include those in leadership positions or those who 
conduct complaint intake analysis.   [See page 27.]
    Admiral Shelanski. All of the NAVINSGEN investigators are civilian. 
  [See page 27.]
    General Harris. The Air Force senior official investigations office 
has 3 civilian investigators (GS-15s) and 8 military investigators 
(colonels).   [See page 27.]
    General Ottignon. GMC rates 3 civilian senior official 
investigators, currently 2 are assigned. Hiring actions are underway 
for 2 additional civilian investigators.   [See page 27.]
    General Quantock. In FY17, the Army tried 531 courts-martial. Of 
that number, 36 accused personnel were officers and 495 were enlisted 
Soldiers.   [See page 34.]
    Admiral Shelanski. See attached chart for Navy Courts-Martial 
summary.   [See page 34.]


    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    General Harris. The chart below shows the number of court-
martials--breaking out enlisted and officer--for the last five years.   
[See page 34.]

------------------------------------------------------------------------
                      Enlisted           Officer             Total
------------------------------------------------------------------------
2013             709                32                 741
------------------------------------------------------------------------
2014             525                31                 556
------------------------------------------------------------------------
2015             509                38                 547
------------------------------------------------------------------------
2016             469                24                 493
------------------------------------------------------------------------
2017             464                24                 488
------------------------------------------------------------------------


    General Ottignon. Disposition of corrective actions (court-
martials) records are maintained by the Staff Judge Advocate to the 
Commandant.   [See page 34.]
Second panel
    General McConville. Since 1999, the Army has preferred courts-
martial charges against four general officers. Three courts-martial 
were tried to completion, the fourth is ongoing. The security clearance 
status for these officers is as listed:
    James Grazioplene: Does not have an active security clearance. 
Jeffrey Sinclair: Does not have an active security clearance.
    David R. Hale: Does not have an active security clearance.
    Roger Duff: Does not have an active security clearance.
    Over the last 5 years, the Army substantiated misconduct in 113 
investigations involving 121 general officers (GOs). Total number of 
substantiated allegations was 174. Of the 121 GOs substantiated for 
misconduct between FY13 and FY17:
    1--was prosecuted at a General Court-Martial and 1 is the defendant 
in an ongoing General Court-Martial.
    2--received Article 15s.
    32--received Memorandums of Reprimand from the Vice Chief of Staff 
of the Army (VCSA) or another commander.
    35--received Memorandums of Concern from the VCSA or equivalent 
written counseling from another commander or the Deputy Judge Advocate 
General (DJAG).
    34--received Verbal Counseling from the VCSA, another commander, or 
DJAG.
    1--retired GO had a master's degree previously awarded by the Army 
War College revoked.
    5--cases were not referred for Army disciplinary action because 
they involved minor technical infractions investigated after the 
officer retired or reflected misconduct in a civilian employment 
capacity for a Reserve officer and were referred to the proper channel 
for resolution. In 5 cases, the VCSA directed no action after reviewing 
the investigative file and receiving legal advice.
    5--cases are still pending disposition.   [See page 39.]
    Admiral Moran. In a review of court-martial records going back as 
far as 2007, the Navy has no record of a court-martial of any flag 
officer. In 2016, the Department of Justice (DOJ) prosecuted a flag 
officer in federal court for misconduct committed while on active duty, 
and in 2017 the DOJ indicted a retired flag officer for offenses 
allegedly committed while on active duty. In these cases, DOJ 
involvement precluded the Navy from court-martialing these officers.
    In the past five years, there have been 24 substantiated misconduct 
investigations against flag officers. Of these cases, 11 were a result 
of the Glenn Defense Marine Asia investigation. The accountability 
actions taken against the flag officers included relief of command, 
administrative counseling, Secretarial letters of censure, and non-
judicial punishment. Two officers investigated for allegations of 
misconduct related to GDMA had their local access to classified 
material suspended. Of note, a Commander's decision whether to suspend 
local access to classified materials for a service member under their 
command is not part of the accountability process. Rather, this is a 
separate determination as to whether the adverse or derogatory 
information affects the standards used for clearance eligibility.
    General Wilson. A search of the Air Force's current database, which 
goes back through 1997, reveals no courts-martial involving a general 
officer and no clearances revoked.   [See page 39.]
    In the past 5 years, Air Force Inspector General Investigations 
substantiated 77 military senior officials' allegations. Command action 
in those cases included: Article 15--1 Letter of Reprimand--21 Letter 
of Admonishment--11 Letter of Counselling--24 Alternative Disposition 
(verbal counselling or no action)--14 ``Other''--3 Pending--3   [See 
page 39.]
    General Walters. There have been no general officers court-
martialed in the Marine Corps in the last five years.
    There have been nine* misconduct allegations substantiated against 
general officers, and one against an SES in the last five years. [* 
This number does not include 2017 contempt finding in Military 
Commissions case].
    In each case, the senior official was counseled and/or received a 
non-punitive letter of caution (NPLOC). One officer who had been 
selected for major general was eventually removed from the promotion 
list after allegations were substantiated against him and his selection 
was reviewed by a Promotion Review Board (PRB). The PRB determined 
that, in light of the substantiated allegations, the officer was no 
longer qualified for promotion.
    The Marine Corps reviews on-going and completed misconduct 
investigations prior to forwarding a general officer's nomination and 
when determining an appropriate retirement grade recommendation.
    No general officer has had their security clearance revoked.   [See 
page 39.]
    General McConville. Due to recent updates, we do not recommend any 
changes at this point. The Military Justice Review Group (MJRG) 
recently studied this issue as part of a ``comprehensive and holistic 
review'' that examined all punitive articles and recommended extending 
the statute of limitations (SOL) for a child abuse offense from 5 to 10 
years, extending the SOL for fraudulent enlistment to 5 years or the 
length of the enlistment, and creating a new extension of the SOL when 
DNA evidence implicates an accused for certain offenses. Congress 
adopted these recommendations in NDAA FY17. Based on the recency and 
completeness of the MJRG review, the accompanying appellate issues each 
change generates, and the potential for due process violations, we are 
not requesting any changes at this time.   [See page 48.]
    Admiral Moran. This issue was recently considered by the Military 
Justice Review Group (MJRG). In December 2015, the MJRG reviewed the 
question of whether the statutes of limitation in the Uniform Code of 
Military Justice (UCMJ) should be modified and the group's 
recommendations were incorporated into the Military Justice Act of 2016 
(MJA16).
    The 2015 review and study of statute of limitations by the MJRG, 
including a comparison with federal law, found that the statute of 
limitations provisions under the UCMJ are largely in step with federal 
counterparts for common law crimes. The three recommended substantive 
changes that were included into MJA16 as changes to the statutes of 
limitations established in Article 43, UCMJ are as follows: 1) Child 
Abuse. Article 43(b)(2)(a) extends the statute of limitations 
applicable to child abuse offenses from the current five years or the 
life of the child, whichever is longer, to ten years or the life of the 
child, whichever is longer, thereby aligning with 18 U.S.C. Sec. 3283 
(in 2006, Congress raised the limitations period in the Title 18 
provision from five years to ten years).
    2) Fraudulent Enlistment. Article 43(h) extends the statute of 
limitations for Article 83 (fraudulent enlistment) cases from five 
years to (1) the length of the enlistment, in the case of enlisted 
members; (2) the length of the appointment, in the case of officers; or 
(3) five years, whichever is longer.
    3) Cases Involving DNA Evidence. Article 43(i) extends the statute 
of limitations until a period of time following the implication of an 
identified person by DNA testing that is equal to the otherwise 
applicable limitations period, thereby aligning with 18 U.S.C. 
Sec. 3297. Pursuant to Article 43, murder; rape and sexual assault; 
rape and sexual assault of a child; absence without leave or missing 
movement in time of war; and any other offense punishable by death may 
be tried and punished at any time without limitation.
    The statute of limitations for all other offenses is five years; 
however, Article 43(d)-(g) provide several additional exceptions to the 
statutes of limitations described above. These exceptions provide added 
authority and flexibility for prosecuting offenses in a number of 
circumstances unique to the military justice system including for 
offenses committed in a time of war; when an accused is absent from 
territory in which the United States has the authority to apprehend 
him, or is in the custody of civil authorities or enemy forces; and 
when prosecution is considered to be detrimental to the prosecution of 
war or inimical to the national security.   [See page 48.]
    General Wilson. The Uniform Code of Military Justice provides for a 
five-year statute of limitations for most crimes. Congress has also 
provided for an increased statute of limitations for some of the most 
serious crimes to include murder, sexual assault, and sexual abuse of a 
child. While statutes of limitations vary by state and federal civilian 
jurisdictions, the current statute of limitations provision in the 
Uniform Code of Military Justice provides for adequate time to 
prosecute instances of misconduct within the military.
    Any change to the statute of limitations must consider the purposes 
of such limitations. A statute of limitations ensures criminal 
allegations are resolved in a timely fashion, ensures the availability 
of evidence for both the prosecution and defense, and enables a fair 
process. Given the purposes of statute of limitations provisions, the 
adequacy of such provisions within the Uniform Code of Military 
Justice, and the availability of administrative actions, we do not 
recommend any modification to the statute of limitations at this time.   
[See page 48.]
    General Walters. The Marine Corps is part of the Joint Service 
Committee (JSC) on Military Justice. The JSC process continuously 
evaluates whether changes to the UCMJ are warranted. The JSC was also 
part of the recent Military Justice Review Group's comprehensive 
revision of the Manual for Court-Martial which resulted in Military 
Justice Act of 2016. The MJA of 2016 included some revisions to the 
length of the statutes of limitations under Art. 43, Uniform Code of 
Military Justice. There are no additional recommended changes at this 
time.   [See page 48.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. McSALLY
    General McConville. We take sworn and recorded testimony. Each 
complainant, witness and subject are advised that they are required to 
provide truthful testimony. If it is determined that an individual 
provided a false official statement during an IG investigation, then 
the matter could be referred to the appropriate command/organization 
for resolution. It could also be documented as a substantiated finding 
in the IG database. However, it is rare for us to find that an 
individual provided false statements during an IG investigation.   [See 
page 49.]
    Admiral Moran. Yes. If the claim is false, the complainant's 
veracity in filing the complaint could be reviewed and addressed by 
appropriate authorities at their discretion. ``Appropriate 
authorities'' is a direct reference to the complainant's chain of 
command. A commander or supervisor could/would be the appropriate 
authority to address an allegation of misconduct on the part of a 
service member or civilian (e.g., knowingly filing a false IG 
complaint).   [See page 49.]
    General Wilson. Should a report submitted to any investigative 
agency uncover misconduct, whether by the subject of the investigation 
or by the person making the report, the Air Force maintains avenues to 
appropriately respond to any misconduct. This might include criminal 
prosecution under the Uniform Code of Military Justice, if the evidence 
supports such action.
    Integrity is one of the Air Force's core values and any lapse in 
integrity, to include fabricating allegations of wrongdoing to utilize 
the investigative process in a malicious manner, is taken seriously by 
all levels of command. This would include knowingly making false 
official statements or false claims to an investigator.   [See page 
49.]
    General Walters. When a service member, in the process of making a 
claim of reprisal or some other allegations, is suspected of making a 
false official statement, which is a criminal offense under Article 107 
UCMJ, the command or military law enforcement will investigate the 
matter in order to provide the cognizant commander relevant information 
to decide on how the alleged misconduct will be addressed.   [See page 
49.]
    General McConville. All Army Inspectors General undergo a highly 
structured, fully accredited training program based on the adult 
learning model. The Army's Training and Doctrine Command and the 
American Council on Education are the accrediting authorities for both 
the Army IG Basic and Advanced Courses. Specifically for 
investigations, the Basic Course provides 28.5 hours of hands-on, 
scenario-driven instruction, and the Advanced Course provides 7 hours 
of advanced critical-thinking and writing instruction. In a learner-
centric environment that leverages state-of-the-art, interactive 
simulation and other technologies, students learn both policy and 
doctrinal aspects of IG investigations through a combination of large- 
and small-group instruction facilitated by hands-on practical exercises 
based upon actual cases. The instructors then assess student knowledge 
and application skills through a combination of knowledge-based tests 
and application-based graded homework exercises. IG investigators 
continue to enhance their skills and techniques through their local IG 
office provided training and external training opportunities, such as 
the Department of Defense IG Whistleblower Reprisal Investigations 
course.
    In addition to the above training, all investigators assigned to 
conduct senior official investigations participate in a week-long 
Investigator Development Program. This training focuses specifically on 
those processes and procedures unique to senior official 
investigations. It consists of 9 training blocks, each taught by an 
experienced senior official investigator. Also, all new investigators 
are assigned a civilian mentor who works with his/her mentee until the 
new investigator has demonstrated proficiency in all tasks regarding 
senior official investigations. Our extensive review process, which 
includes peer reviews, multiple legal reviews, and several leadership 
reviews, ensures that all investigations are thorough, accurate, and 
unbiased, and that the conclusions are supported by a preponderance of 
credible evidence.   [See page 49.]
    Admiral Moran. Investigators go through Basic and Advanced Hotline 
training and Military Whistle Blower Reprisal Courses. The tenet that 
``we serve as impartial fact-finders for the directing authority, and 
are in no position to pass judgment or execute punishment,'' is 
reinforced through the training, during practical exercises of 
interviewing and report writing. Instructors, mentors, and leaders 
evaluate these techniques throughout the courses and also provide 
checks and balances, as an ongoing measure, from the Naval Inspector 
General Headquarters, through quality assurance checks and oversight of 
inquiries and reports of investigation that are within the purview of 
the Naval Inspector General.   [See page 49.]
    General Wilson. Air Force senior official investigating officers 
come from a variety of backgrounds. Nearly all are graduated senior-
level (colonel) commanders with 20+ year careers in the Air Force or 
other military service. These investigating officers are chosen 
selectively for their past performance, judgement, and maturity. The 
training they receive includes interview training, investigating 
writing training, courses presented by the Office of the Inspector 
General, Department of Defense, and an extensive internal ``block 
training'' process. Central to the training is the Council for 
Inspectors General on Integrity and Efficiency ``Quality Standards for 
Investigations.'' These standards and associated training explicitly 
focus on ensuring investigations are independent, fair, thorough, 
accurate, objective, impartial, ethical, unbiased, and accomplished 
with due professional care. All Air Force senior official cases are 
investigated using a ``team concept'' with an Investigating Officer and 
an imbedded attorney advisor assigned to each investigation from start 
to finish. The investigations are overseen by the Director of Senior 
Official Inquiries. And, each investigation receives a separate and 
fully independent legal review by the Director of Administrative Law 
for the Air Force upon its completion. Our sole focus and desired 
outcome is an independent, fair, accurate, thorough, and objective 
investigation without regard for the specific finding on any individual 
allegation.   [See page 49.]
    General Walters. [No answer was available at the time of printing.] 
  [See page 49.]
    General McConville. In accordance with our procedures, we try to 
maintain the confidentiality of IG investigations to the maximum extent 
possible. Each individual who provides information or testimony in 
support of an IG investigation is told to not discuss the matters with 
anyone other than the IG. Additionally, most of our investigations are 
not ``sensitive'' or ``newsworthy'' and only involve a few personnel. 
In the typical case, we do not see the need for a public exoneration. 
In the rare instances when a senior official investigation becomes 
widely known and has adversely impacted the organization, as well as 
the credibility of the senior official, we would certainly support a 
formal statement issued via public affairs channels that enables the 
Army to publicly acknowledge that the senior official was cleared of 
any wrongdoing.   [See page 50.]
    Admiral Moran. No. NAVIG does not support publically acknowledging 
cases that are not substantiated. This protects the subject from 
unwanted and unwarranted attention that may cause a negative perception 
about them based on false allegations and may be damaging to their 
career.   [See page 50.]
    General Wilson. The result of any investigation is always available 
for official purposes internally within the Air Force and is generally 
releasable to the subject of that investigation subject to legal 
requirements. However, the Air Force currently does not provide a 
public statement when any Airman, to include a senior leader, is 
exonerated of an allegation. Such statements are generally not 
permitted under the Privacy Act. However, if the subject of the 
investigation permits the Air Force to release information that SAF/IG 
did not substantiate an allegation against him/her, they could sign a 
Privacy Act release authorizing the AF to release such information.   
[See page 50.]
    General Walters. When a servicemember is no longer the subject of 
an investigation, and will be the subject of no criminal or 
administrative action, it may be because that person has been 
exonerated or it has been determined that there is simply not 
sufficient evidence to proceed. In either case, there is no formal 
process for publically and specifically addressing the fact that a 
servicemember is no longer a suspect of criminal misconduct during or 
following an investigation. Rather, the commander has the prerogative 
to address the matter directly with the accused or through their 
counsel.   [See page 50.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 7, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. How big is your inspections backlog? How many days does 
the average investigation take? How many more investigators do you 
need?
    Mr. Fine.  Whistleblower Reprisal Case Backlog

    The largest backlog exists in whistleblower reprisal cases. As of 
March 6, 2018, there were 279 open whistleblower reprisal cases at the 
DOD OIG. The 279 open cases are composed of 78 investigations, 122 
intakes, 50 Alternative Dispute Resolution cases, and 29 cases from the 
Military Services and the DOD Component IGs that the OIG is providing 
oversight review. Of the 78 investigations, 75 (96%) are over 180 days 
old and 67 (86%) are over 1 year old.
    From FY 2013 to FY 2017, the number of reprisal complaints received 
by the DOD OIG increased from 1,059 to 1,808 (71%) and the number of 
intakes dismissed increased from 495 to 892 (140%). Because DOD OIG 
investigators had to respond to the dramatic increase in incoming 
complaints, they closed fewer investigations (decrease from 47 to 37).
    Included in the increase in caseload is a significant increase in 
the number of cases where sexual assault victims have alleged that 
reprisal actions were taken against them. As of March 6, 2018, the DOD 
OIG had 84 open sexual assault related reprisal cases. The 84 open 
cases are composed of 30 investigations and 54 intakes.
    The DOD OIG has implemented several initiatives to attempt to 
address the large increase in workloads.
    [bullet]  In FY 2013, we deployed the Defense-Case Activity 
Tracking System (D-CATS) enabling a paperless environment for data and 
documentation and the seamless transmittal of cases within the DOD OIG.
    [bullet]  In FY 2014, we created the Oversight Branch with 
investigators dedicated to performing oversight reviews of reprisal 
cases referred to the Military Service and DOD Component IGs.
    [bullet]  In FY 2016, we streamlined the oversight process, 
eliminating a backlog of over 200 cases, and improving the time to 
complete oversight reviews from 70 days to 10 days.
    [bullet]  In FY 2016, we initiated reviews of the investigative 
operations of the Military Service IGs to identify areas for improved 
efficiency and to share best practices.
    [bullet]  In FY 2017, we established an Alternative Dispute 
Resolution (ADR) capacity, with a team a personnel who have completed 
108 ADR cases and 18 settlements.

Resources Needed
    At the start of FY 2018, I reallocated 21 FTEs from other DOD OIG 
components to the Administrative Investigations (AI) Whistleblower 
Reprisal Directorate (WRI) and DOD Hotline in an attempt to improve the 
timeliness of the intakes and investigations conducted by the DOD OIG. 
The DOD OIG has been aggressively recruiting and onboarding staff to 
fill those FTEs, with 11 of 21 (52%) onboard.
    However, more resources are needed. First, we need an increase of 
21 FTES for the DOD OIG end strength in order to backfill the 21 FTEs 
in the other DOD OIG components from whom I reallocated resources to 
the whistleblower reprisal and Hotline units. This is necessary to 
prevent the other DOD OIG components from suffering due to personnel 
loss, in execution of their important missions.
    Second, we need 10 FTEs to perform the process reviews of the 
Military Service IGs. In FY 2016 and FY 2017, the DOD OIG conducted 
process reviews of the Naval IG and the Air Force IG. We recently 
initiated a review of the Army IG. These reviews, which are similar to 
Federal IG peer reviews, are in-depth systemic assessments of 
investigative operations. They require a team of 10 full time 
investigators from 6-8 months to complete. We intend to conduct reviews 
of each Military Service IG at least once every 3 years.

Senior Official Cases

    As of March 6, 2018, there were 35 open senior official cases at 
the DOD OIG. The 35 open DOD OIG cases were composed of 12 
investigations, 13 intakes, and 10 cases from the Military Services and 
the DOD Component IGs where the OIG is providing oversight review. Of 
the 12 open DOD OIG investigations, 4 (33%) were over 180 days old and 
1 (8%) was over 1 year old.
    From FY 2013 to FY 2017, the number of senior official complaints 
the DOD OIG received increased from 703 to 803 (14%). At the same time, 
the average number of days the DOD OIG took to complete senior official 
investigations increased from 267 days in FY 2013 to 472 days in FY 
2017.
    There are two primary reasons for the DOD OIG taking more time to 
complete investigations in the past several years. First, is the 
increasing complexity of the cases that occurred while the number of 
investigators assigned to conduct investigations remained the same. The 
complexity of investigations is measured by the number of allegations 
and issues addressed, the number of witnesses interviewed, the number 
of documents collected, and the number of pages in the final report.
    Second, the DOD OIG investigation into allegations involving 
intelligence reporting at U.S. CENTCOM was one of the largest 
investigations ever to be conducted by the DOD OIG. The investigation 
team addressed 25 allegations, conducted 150 interviews, collected 15 
terabytes of data representing over 17 million classified documents, 
and produced two reports of 190 (unclassified) and 542 pages 
(classified). This case was conducted by 30 personnel and took 18 
months to complete.
    While the U.S. CENTCOM was an unusually complex case, there have 
been an increasing number of other more complex cases and special 
reviews that the office has completed in FY 2016 and FY 2017 at the 
request of the Secretary of Defense.

Resources Needed
    We believe we need an additional 12 investigators for the ISO 
Directorate to conduct senior official investigations and special 
reviews. This would provide us the investigative capability to more 
expeditiously handle the increasing number of more complex 
investigations and special reviews.
    Finally, the resources outlined above are only for our 
Administrative Investigations component. The DOD OIG also needs 
additional resources to conduct audits, evaluations, and criminal 
investigations; which I can discuss further if requested.
    Ms. Speier. Do you feel the current investigations reveal patterns 
of behavior far enough back in the career to assist the board in making 
the correct determination? If not, how should this be corrected?
    Mr. Fine. Yes, from our perspective, it appears that the DOD has 
appropriate systems in place to record and review adverse information. 
For career actions requiring Senate confirmation, the checks of 
investigative records for adverse and reportable information is 
required by DOD Instruction (DODI) 1320.04, ``Military Officer Actions 
Requiring Presidential, Secretary of Defense, or Under Secretary of 
Defense for Personnel and Readiness Approval or Senate Confirmation.''
    However, we are concerned about a recent policy change regarding 
procedures for investigating issues or allegations presented to Army 
IGs and for closing cases in the Army Inspector General Action Request 
System (IGARS) database. A new Army policy directs that Army IGs will 
not close out issues or allegations in IGARS as ``substantiated'' or 
``not substantiated'' when those cases were received by IGs and 
referred to commands for investigation. Instead, Army IGs are now 
instructed to record the form of action taken by the command (i.e., 
commander's inquiry, AR 15-6) and close the case as ``Assistance.'' The 
policy also covers complaints referred to an IG by the DOD Hotline. 
This new policy is contrary to the DOD Hotline policy that requires 
findings be stated as ``substantiated or not substantiated only,'' and 
is inconsistent with DODI 1320.04 which requires DOD to inform the 
President and Senate of adverse or reportable information. In addition, 
we are concerned by the characterization of certain adverse information 
in the Army IGARS by referring to them as ``assistance'' cases because 
it may impact the DOD's ability to provide accurate information to the 
President and the Senate about substantiated cases. We have raised our 
concerns with the Army and the Department as to how this change will 
affect the Army's and the Department's ability to document and review 
patterns of adverse behavior.
    Ms. Speier. Provide number of senior leader misconduct cases that 
allegations were substantiated, with action recommended and the Service 
did not take action. What was the substantiated allegation in each 
case? What was the rationale for not acting?
    Mr. Fine. From FY 2013 to FY 2017, there were 24 cases 
substantiated by the DOD OIG and the Military Service and DOD Component 
IGs where Military Service or DOD Senior Management Officials declined 
to take action.
    The rationale provided by the Services or the DOD for not taking 
action included that they disagreed with the investigation conclusions, 
they considered the subject's otherwise exemplary career, or that the 
subject was no longer in the Military or Federal Service.
    Ms. Speier. How big is your inspections backlog? How many days does 
the average investigation take? How many more investigators do you 
need?
    General Quantock. Our current investigations backlog is 
approximately 10 cases. We base this backlog against our goal of 
completing 60% of our senior official investigations in less than 180 
days. The 180 day metric is based on historical case processing 
timelines. Over the last 5 years, the average case processing time for 
senior official investigations was 246 days, with a median of 192 days. 
Note: We start our case processing timeline based on the date we 
received the complaint, which is different than some of the other 
services. In order to meet our case processing timeline goals for 
senior official investigations, we estimate that we need approximately 
2-3 additional investigators. An updated manpower analysis is currently 
in progress.
    Ms. Speier. When was LTG Quantock first made aware of complaints 
and/or allegations against Mr. Joseph F. Guzowski related to treating 
Army IG employees with dignity and respect? What actions did he take 
upon being made aware of those complaints and/or allegations? On what 
dates has LTG Quantock discussed these complaints and the resulting CID 
and DOD IG investigations with Mr. Guzwoski? What was the content of 
those conversations? What comments has LTG Quantock made to Mr. 
Guzowski about the nature of allegations and/or complaints, the 
investigations, or their disposition?
    General Quantock. LTG Quantock learned of each allegation 
separately. Regarding the 2012 allegation that Mr. Guzowski gave an 
unwanted kiss to an IG employee, LTG Quantock was made aware in August 
2015. Regarding the December 2016 inappropriate touching allegation, 
LTG Quantock was made aware in early January 2017. Upon learning of 
each allegation, LTG Quantock took immediate action. Once informed in 
August 2015 of the 2012 allegation, LTG Quantock immediately notified 
the Senior Official Investigations Division, which referred the matter 
to the appropriate agency to address the complaint--the Department of 
Defense Inspector General (DOD IG). LTG Quantock also immediately 
referred the 2016 allegation to the Senior Official Investigations 
Division, which then notified the Criminal Investigations Division 
(CID) and the DOD IG. CID investigated and determined there was no 
probable cause to believe Mr. Guzowski committed the offense of sexual 
battery. DOD IG pursued its own investigation. LTG Quantock discussed 
the DOD IG investigation findings with Mr. Guzowski only after the 
release of DOD IG's final report. At that time, LTG Quantock informed 
Mr. Guzowski that he would be temporarily detailed to the Office of the 
Deputy Under Secretary of the Army, pending review and appropriate 
action regarding the substantiated findings.
    Ms. Speier. Do you feel the current investigations reveal patterns 
of behavior far enough back in the career to assist the board in making 
the correct determination? If not, how should this be corrected?
    General Quantock. The primary purpose of an investigation is to 
determine if there is a senior official impropriety. In the course of 
an investigation, we obtain evidence that is relevant to the 
allegations under investigation. Based on the nature of the allegation, 
we may identify instances of impropriety that occurred in prior years 
during the course of the investigation. This evidence of past 
impropriety would be documented in the DAIG report of investigation, 
and could be used by a board to inform/support its grade determination 
decision. Over the years, there have been a few cases where our 
investigations identified misconduct that occurred several years prior. 
In those instances, the senior official was ultimately reduced in grade 
based on this information.
    Ms. Speier. How big is your inspections backlog? How many days does 
the average investigation take? How many more investigators do you 
need?
    Admiral Shelanski. Currently the Naval Inspector General has a 
backlog of 73 Reprisal Investigations, 60 Hotline Investigations and 4 
Senior Official Investigations that do not meet DODIG's completion 
timeline. An average Reprisal case takes 136 days, a Hotline case takes 
79 and a Senior Official case takes 215.
    Ms. Speier. Do you feel the current investigations reveal patterns 
of behavior far enough back in the career to assist the board in making 
the correct determination? If not, how should this be corrected?
    Admiral Shelanski. This question requires trend analysis, a process 
for which we are not currently resourced. NAVINSGEN's role in a 
retirement grade decision for a Flag Officer is to query our data base 
to see if there has been any misconduct reported or documented against 
the Flag Officer. These record queries are also done for Flag Officer 
promotions.
    Ms. Speier. How big is your inspections backlog? How many days does 
the average investigation take? How many more investigators do you 
need?
    General Harris. Air Force senior official investigations currently 
has 16 open investigations and 12 complaints in intake. In CY 2017 the 
average case duration for an Air Force senior official investigation 
was 187 days. We are currently assessing our requirements to improve 
timeliness through additional efficiencies and manpower, if necessary.
    Ms. Speier. Do you feel the current investigations reveal patterns 
of behavior far enough back in the career to assist the board in making 
the correct determination? If not, how should this be corrected?
    General Harris. Air Force Inspector General senior official 
investigations address specific complaints that include credible 
evidence of a violation of law, instruction, regulation, or policy. 
However, we also consider each complaint in its broader context and 
review whether there have been any previous instances of misconduct or 
trends over an officer's career. Previous performance or misconduct 
issues would be included in the officer's record and reflected in that 
record as an officer meets a promotion board. Any substantiated 
allegations of a violation by an officer, past or present, are included 
in the officer's record meeting a promotion board in a Senior Officer 
Unfavorable Information File (SOUIF). As such, senior official 
investigations themselves provide one piece of information that may 
assist in decision making. Any individual investigation's results must 
be combined with an officer's official record to get a comprehensive 
picture of the officer's career, performance, and potential.
    Ms. Speier. How big is your inspections backlog? How many days does 
the average investigation take? How many more investigators do you 
need?
    General Ottignon. Currently, the Inspector General of the Marine 
Corps (IGMC) has:
    1. Open cases:
      a. Senior Official Investigation 8
      b. Senior Official (Preliminary Inquiry) 3
      c. Whistleblower Reprisal 25
      d. Hotline Investigations 292
      e. Total IGMC Cases open 328 as of 12 March 2018
    2. The average days it takes to receive, analyze, investigate and 
close investigations (Averages)
      a. 2014 186 days
      b. 2015 220 days
      c. 2016 280 days
      d. 2017 330 days as of 12 March 2018
    3. The IGMC office has conducted an internal look at requirements 
to be in compliance with the Department standards. At the minimum, the 
IGMC office requires an additional investigator (GS-14), an additional 
supervisor (GS-15) for senior official investigations and 4 paralegal 
administrative clerks (GS-9).
    Ms. Speier. Do you feel the current investigations reveal patterns 
of behavior far enough back in the career to assist the board in making 
the correct determination? If not, how should this be corrected?
    General Ottignon. Yes. The statutory board process for promotions 
adheres to a process in which a member's complete record is reviewed 
and weighed. Adverse material is considered during this process to 
include IG investigation reports of misconduct that may have occurred. 
Moreover, the Marine Corps conducts reviews every 90 days to ensure 
nominees or selected members for promotion have not since had 
misconduct
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. How many civilian and military investigators serve in 
your office? How many contractors? What level of prior investigative 
experience do they have? How many investigators would you need to be 
fully staffed?
    Mr. Fine. There are 77 investigators at the DOD OIG Administrative 
Investigations office, which conducts senior official and whistleblower 
reprisal investigations (76 civilians and 1 active duty military). The 
investigators possess an average of 14 years of investigative, audit, 
or legal experience.
    As noted above, we believe we need an additional 43 FTEs to conduct 
senior official and whistleblower reprisal investigations and reviews 
of investigative operations of the Military Service IGs. The DOD OIG 
also needs additional resources to conduct audits, evaluations, and 
criminal investigations; which I can discuss further if requested.
    Ms. Tsongas. How many civilian and military investigators serve in 
your office? How many contractors? What level of prior investigative 
experience do they have? How many investigators would you need to be 
fully staffed?
    General Quantock. Our current authorizations for investigators who 
conduct senior official investigations are as follows: Military--11 
(COL-LTC) Civilian--9 (GS14) We do not have any contractors who serve 
as investigators. Note that this does not include those in leadership 
positions, nor does it include those who conduct complaint intake 
analysis. Our civilian investigators have extensive investigative 
experience. Typically, a new civilian hire has at least 3-5 years of 
investigative experience. Currently, the average investigative 
experience for our assigned civilians is approximately 10 years. Our 
military investigators initially have little investigative experience. 
However, each investigator receives extensive training in order to 
become a qualified investigator of senior officials. In order to reduce 
current case backlog to meet our established goals, we will need 
approximately 2-3 additional investigators. An updated manpower 
analysis is currently in progress.
    Ms. Tsongas. How many civilian and military investigators serve in 
your office? How many contractors? What level of prior investigative 
experience do they have? How many investigators would you need to be 
fully staffed?
    Admiral Shelanski. At NAVINSGEN Headquarters, we currently have 
four senior official investigators, four Hotline investigators, five 
Reprisal investigators, one Congressional investigator, and two 
supervisors, who also conduct investigations in addition to their 
supervisory role. The investigators are all civilian GS employees. 
Almost all have prior investigative experience, ranging from prior 
military service to a former police officer investigator. To be fully 
staffed, under current staffing levels, we would require a total of 16 
additional investigators at NAVIG HQ and 24 additional investigators 
throughout the enterprise.
    Ms. Tsongas. How many civilian and military investigators serve in 
your office? How many contractors? What level of prior investigative 
experience do they have? How many investigators would you need to be 
fully staffed?
    General Harris. The Air Force senior official investigations office 
has three civilian investigators and eight military colonel 
investigators, and zero contractors. Air Force senior official 
investigating officers come from a variety of backgrounds. These 
investigating officers are chosen selectively for their past 
performance, judgement, and maturity. Nearly all are graduated senior-
level (colonel) commanders with 20+ year careers in the Air Force or 
other military service. The training they receive includes interview 
training, investigating writing training, courses presented by the 
Office of the Inspector General, Department of Defense, and an 
extensive internal ``block training'' process. Central to the training 
is the Council for Inspectors General on Integrity and Efficiency 
``Quality Standards for Investigations.'' These standards and 
associated training explicitly focus on ensuring investigations are 
independent, fair, thorough, accurate, objective, impartial, ethical, 
unbiased, and accomplished with due professional care. All Air Force 
senior official cases are investigated using a ``team concept'' with an 
Investigating Officer and an imbedded attorney advisor assigned to each 
investigation from start to finish. The investigations are overseen by 
the Director of Senior Official Inquiries. And, each investigation 
receives a separate and fully independent legal review by the Director 
of Administrative Law for the Air Force upon its completion. Our sole 
focus and desired outcome is an independent, fair, accurate, thorough, 
and objective investigation without regard for a specific finding on 
any individual allegation. The Air Force senior official investigating 
office is currently fully staffed, although we are currently exploring 
options to improve timeliness through efficiencies and additional 
manpower.
    Ms. Tsongas. How many civilian and military investigators serve in 
your office? How many contractors? What level of prior investigative 
experience do they have? How many investigators would you need to be 
fully staffed?
    General Ottignon. IGMC investigative branch has structure for 3 
civilian investigators (GS-14). Currently there are 2 civilian 
investigators serving. Hiring actions are underway for the vacancy. 
Navy IG recently shifted an additional civilian investigator to IGMC 
for a total of 4 civilian investors. Hiring actions are underway for 
this vacancy as well. Civilian investigators have an average of 3 years 
prior IG investigations experience.
    There are no military investigators assigned to IGMC investigations 
branch.

Second panel

    Ms. Tsongas. For which felonies should the statute of limitations 
be increased?
    General McConville. Due to recent updates, we do not recommend any 
changes at this point. The Military Justice Review Group (MJRG) 
recently studied this issue as part of a ``comprehensive and holistic 
review'' that examined all punitive articles and recommended extending 
the statute of limitations (SOL) for a child abuse offense from 5 to 10 
years, extending the SOL for fraudulent enlistment to 5 years or the 
length of the enlistment, and creating a new extension of the SOL when 
DNA evidence implicates an accused for certain offenses. Congress 
adopted these recommendations in NDAA FY17. Based on the recent and 
comprehensive MJRG review, the accompanying appellate issues each 
change generates, and the potential for due process violations, we 
would not recommend any changes at this time.
    Ms. Tsongas. Which general officers have requested outside 
employment in the past five years? Which of these cases were approved 
and which were denied?
    General McConville. Under the Joint Ethics Regulation, active duty 
general officers, like all service members, must receive prior written 
approval before engaging in a business activity or compensated outside 
employment with a prohibited source. The approval authority may 
disapprove outside employment if he/she determines that it will create 
a conflict of interest with the officer's official duties, detract from 
readiness, or pose a security risk. The decision to approve or deny 
requests for outside employment submitted by active duty general 
officers is made at the local level. The Army does not centrally track 
this information. However, we are reviewing the need and feasibility of 
a system that would provide Headquarters Department of the Army 
visibility over active duty general officers engaged in outside 
employment.
    Ms. Tsongas. For which felonies should the statute of limitations 
be increased?
    Admiral Moran. This issue was recently considered by the Military 
Justice Review Group (MJRG). In December 2015, the MJRG reviewed the 
question of whether the statutes of limitation in the Uniform Code of 
Military Justice (UCMJ) should be modified and the group's 
recommendations were incorporated into the Military Justice Act of 2016 
(MJA16).
    The 2015 review and study of statute of limitations by the MJRG, 
including a comparison with federal law, found that the statute of 
limitations provisions under the UCMJ are largely in step with federal 
counterparts for common law crimes. The three recommended substantive 
changes that were included into MJA16 as changes to the statutes of 
limitations established in Article 43, UCMJ are as follows:
    1)  Child Abuse. Article 43(b)(2)(a) extends the statute of 
limitations applicable to child abuse offenses from the current five 
years or the life of the child, whichever is longer, to ten years or 
the life of the child, whichever is longer, thereby aligning with 18 
U.S.C. Sec. 3283 (in 2006, Congress raised the limitations period in 
the Title 18 provision from five years to ten years).
    2)  Fraudulent Enlistment. Article 43(h) extends the statute of 
limitations for Article 83 (fraudulent enlistment) cases from five 
years to (1) the length of the enlistment, in the case of enlisted 
members; (2) the length of the appointment, in the case of officers; or 
(3) five years, whichever is longer.
    3)  Cases Involving DNA Evidence. Article 43(i) extends the statute 
of limitations until a period of time following the implication of an 
identified person by DNA testing that is equal to the otherwise 
applicable limitations period, thereby aligning with 18 U.S.C. 
Sec. 3297. Pursuant to Article 43, murder; rape and sexual assault; 
rape and sexual assault of a child; absence without leave or missing 
movement in time of war; and any other offense punishable by death may 
be tried and punished at any time without limitation.
    The statute of limitations for all other offenses is five years; 
however, Article 43(d)-(g) provide several additional exceptions to the 
statutes of limitations described above. These exceptions provide added 
authority and flexibility for prosecuting offenses in a number of 
circumstances unique to the military justice system including for 
offenses committed in a time of war; when an accused is absent from 
territory in which the United States has the authority to apprehend 
him, or is in the custody of civil authorities or enemy forces; and 
when prosecution is considered to be detrimental to the prosecution of 
war or inimical to the national security.
    Ms. Tsongas. Which general officers have requested outside 
employment in the past five years? Which of these cases were approved 
and which were denied?
    Admiral Moran. The following retired Navy flag officers requested, 
and were approved by the Chief of Naval Personnel under delegated 
authority, to accept compensated civilian employment from a foreign 
government. The Chief of Naval Personnel has not rejected any request 
in the past five years. Since law requires approval of both the 
Secretaries of Defense and State, the Department of State would need to 
confirm which officer's requests were ultimately approved.

----------------------------------------------------------------------------------------------------------------
     Year              Name of Person            Foreign Government Approved To Receive Payment for Employment
----------------------------------------------------------------------------------------------------------------
2014           Landay, William                United Kingdom
----------------------------------------------------------------------------------------------------------------
2015           Bowman, Frank                  Saudi Arabia, Egypt
----------------------------------------------------------------------------------------------------------------
2015           Creevy, Lawrence               Canada
----------------------------------------------------------------------------------------------------------------
201            Eccles, Thomas                 Australia
----------------------------------------------------------------------------------------------------------------
2015           Gaini, Anthony                 United Kingdom
----------------------------------------------------------------------------------------------------------------
2015           Hall, Thomas                   Iceland
----------------------------------------------------------------------------------------------------------------
2015           Harnitchek, Mark               Afghanistan
----------------------------------------------------------------------------------------------------------------
2015           Johnson, Stephen               Australia
----------------------------------------------------------------------------------------------------------------
2015           Sullivan, Paul                 Australia
----------------------------------------------------------------------------------------------------------------
2016           Eccles, Thomas                 Australia
----------------------------------------------------------------------------------------------------------------
2016           Gale, David                    Australia
----------------------------------------------------------------------------------------------------------------
2016           Hilarides, William             Australia
----------------------------------------------------------------------------------------------------------------
2016           Locklear, Samuel               Taiwan
----------------------------------------------------------------------------------------------------------------
2016           Sullivan, Paul                 Australia
----------------------------------------------------------------------------------------------------------------
2016           Donald, Kirkland               Australia
----------------------------------------------------------------------------------------------------------------
2017           Eccles, Thomas                 Australia
----------------------------------------------------------------------------------------------------------------
2017           Hilarides, William             Italy
----------------------------------------------------------------------------------------------------------------
2017           Johnson, Stephen               Australia
----------------------------------------------------------------------------------------------------------------
2018           Branch, Ted                    Australia and Canada
----------------------------------------------------------------------------------------------------------------
2018           Donald, Kirkland               Australia
----------------------------------------------------------------------------------------------------------------

    \1\ RADM David Gale was approved to work for the Government of 
Australia in August 2016 while still on active duty and his approved 
retirement date was October 1, 2016.

    Ms. Tsongas. For which felonies should the statute of limitations 
be increased?
    General Wilson. The Uniform Code of Military Justice provides for a 
five-year statute of limitations for most crimes. Congress has also 
provided for an increased statute of limitations for some of the most 
serious crimes to include murder, sexual assault, and sexual abuse of a 
child. While statutes of limitations vary by state and federal civilian 
jurisdictions, the current statute of limitations provision in the 
Uniform Code of Military Justice provides for adequate time to 
prosecute instances of misconduct within the military.
    Any change to the statute of limitations must consider the purposes 
of such limitations. A statute of limitations ensures criminal 
allegations are resolved in a timely fashion, ensures the availability 
of evidence for both the prosecution and defense, and enables a fair 
process. Given the purposes of statute of limitations provisions, the 
adequacy of such provisions within the Uniform Code of Military 
Justice, and the availability of administrative actions, we do not 
recommend any modification to the statute of limitations at this time.
    Ms. Tsongas. Which general officers have requested outside 
employment in the past five years? Which of these cases were approved 
and which were denied?
    General Wilson. Air Force records available indicate that the 
following general officers requested, and were approved, for outside 
employment while on terminal leave:
    Gen Larry Spencer--President, Air Force Association--approved
    Lt Gen Robert Otto--Member, Oak Ridge National Lab Global Security 
Directorate's Strategic Advisory Group--approved
    Maj Gen James Martin, Jr.--Partner (non-equity), Kearney and 
Company--approved
    Maj Gen Scott Vander Hamm--Director of Strategic Initiatives, 
Innovative Defense technologies--approved

                                  [all]
</pre></body></html>
